APPENDIX

TABLE OF APPENDICES
Appendix A
Memorandum Disposition, United States
Court of Appeals for the Ninth Circuit,
Hardesty v. Sacramento County, Nos. 1815772, 18-15773 (August 19, 2020) ........... App. 1
Appendix B
Order Denying Post-Trial Motions, United
States District Court, Eastern District of
California, Hardesty v. County of
Sacramento, No. 2:10-cv-02414-KJM-KJN
(March 31, 2018) ...................................... App. 11
Appendix C
Order Denying Petitions for Panel
Rehearing and Rehearing en Banc, United
States Court of Appeals, Ninth Circuit,
Hardesty v. Sacramento County, Nos. 1815772, 18-15773 (October 13, 2020) ...... App. 103

Appendix D
Judgment in a Civil Case, United States
District Court, Eastern District of
California, Hardesty v. County of
Sacramento, No. 2:10-cv-02414-KJM-KJN
(June 9, 2017)......................................... App. 105

App-1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOSEPH HARDESTY;
et al.,
Plaintiffs-Appellees,
v.

Nos. 18-15772, 18-15773
D.C. Nos.
2:10-cv-02414-KJM-KJN
2:12-cv-02457-KJM-KJN

SACRAMENTO COUNTY, MEMORANDUM*
Defendant-Appellant, (Filed Aug. 19, 2020)
and
ROGER DICKINSON;
et al.,
Defendants.
Appeal from the United States District Court
for the Eastern District of California
Kimberly J. Mueller, Chief District Judge, Presiding
Argued and Submitted January 24, 2020
San Francisco, California
Before: W. FLETCHER and R. NELSON, Circuit Judges,
and SESSIONS,** District Judge.

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable William K. Sessions III, United States
District Judge for the District of Vermont, sitting by designation.

App-2
Partial Concurrence and Partial Dissent by Judge R.
NELSON
Defendant Sacramento County (“County”) and individual defendants Roger Dickinson, Jeff Gamel, and
Robert Sherry (collectively “Individual Defendants”)
challenge the district court’s denial of their renewed
motion for judgment as a matter of law and motion
for a new trial. The jury found Defendants liable for
violating Plaintiffs’ substantive due process rights
and awarded $105 million in compensatory damages
against the County and Individual Defendants jointly
and severally, and $1,775,000 in punitive damages
against the Individual Defendants. Defendants argue
the verdict is not supported by substantial evidence,
the court erred by failing to offer a proposed jury instruction regarding campaign ﬁnance, the damages
are excessive, and the Individual Defendants are entitled to immunity. Because the parties are familiar with
the facts, we do not recount them here. We reverse the
judgment as it applies to the Individual Defendants
because they are entitled to immunity, afﬁrm the judgment of liability against the County, and remand the
damages against the County as excessive.
We review de novo the denial of a Fed. R. Civ. P. 50
motion for judgment. Kuntz v. Lamar Corp., 385 F.3d
1177, 1185 n.8. (9th Cir. 2004). We review that motion’s
attack on the jury verdict for substantial evidence. Gilbrook v. City of Westminster, 177 F.3d 839, 856 (9th Cir.
1999). Arguments that were not properly raised in a
Rule 50(a) motion are reviewed only for plain error.
EEOC v. Go Daddy Software, Inc., 581 F.3d 951, 961

App-3
(9th Cir. 2009). We review the district court’s formulation of the jury instructions for abuse of discretion.
Oviatt v. Pearce, 954 F.2d 1470, 1481 (9th Cir. 1992).
1. Defendant Roger Dickinson is entitled to absolute immunity because the functions he performed
were quasi-judicial. The Supreme Court “has outlined
a list of factors to consider in determining whether an
ofﬁcial’s functions are quasi-judicial in nature: (1) the
need to insulate the ofﬁcial from harassment or intimidation; (2) the presence of procedural safeguards to
reduce unconstitutional conduct; (3) insulation from
political inﬂuence; (4) the importance of precedent in
the ofﬁcial’s decision; (5) the adversar[ial] nature of the
process; and (6) the correctability of error on appeal.”
Miller v. Davis, 521 F.3d 1142, 1145 (9th Cir. 2008).
Dickinson voted against the Schneiders’ appeal at a
formal adjudicatory hearing at which counsel was
available to both sides on a transcribed record subject
to judicial review. His role was “functionally comparable” to one of a judicial nature. Moreover, the factors
weigh in favor of him being entitled to absolute immunity. Id. For instance, there is a need to insulate ofﬁcials making adjudicatory decisions from harassment
and intimidation, Dickinson was just one of a panel
that voted and so there were other procedural safeguards checking unconstitutional conduct and, as this
case shows, the process is adversarial with opposing
parties presenting strong and detailed arguments,
through legal counsel, to support their positions.
2. All three Individual Defendants are entitled
to qualiﬁed immunity as to the Hardestys’ claims. No

App-4
Ninth Circuit or Supreme Court case clearly established that the Individual Defendants’ enforcement actions were a violation of the Hardesty’s due process
rights to engage in their chosen profession. See Martinez v. City of Clovis, 943 F.3d 1260, 1275 (9th Cir.
2019) (internal quotation marks omitted). And all
three Individual Defendants are entitled to qualiﬁed
immunity as to the Schneiders’ claims because their
actions did not violate a clearly established constitutional right that any reasonable ofﬁcer would have understood he was violating. Id. at 1275. Plaintiffs claim
the unlawfulness of the Individual Defendants’ actions
was clearly established because they were only permitted to “order the operator to restrict the operation to
its former level” if it appeared that the operation was
expanding beyond the vested right. Hansen Brothers
Enterprises, Inc. v. Board of Supervisors, 12 Cal.4th
533, 575 (Cal. 1996). But the record shows that the Individual Defendants took actions based on multiple
complaints that the Hardesty mine had expanded signiﬁcantly. It was therefore reasonable for the ofﬁcials
to believe that the Schneiders had exceeded the bounds
of their vested right and that their actions did not undermine the original vested right.
3. Because the County did not raise its argument
that the Hardestys failed to support their chosen profession theory with evidence until its Rule 50(b) motion, “we are limited to reviewing the jury’s verdict for
plain error, and should reverse only if such plain error
would result in a manifest miscarriage of justice.” See
Go Daddy, 581 F.3d at 961. Our inquiry is limited to

App-5
“whether there was any evidence to support the verdict. Id. at 961-62. Here, the jury was presented with
evidence that the County ordered the Hardesty mining
operation to shut down; the County did so based on impermissible political motivations; and because of the
County’s actions, there was not “much of anything left
of the Hardesty Sand and Gravel Company” and as of
trial the Hardestys had not any income for seven or
eight years. Based on that evidence, the jury could conclude the County acted arbitrarily and unreasonably
to deprive the Hardestys of their chosen occupation.
See Benigni v. Hemet, 879 F.2d 473, 487 (9th Cir. 1988);
Chalmers v. City of Los Angeles, 762 F.2d 753,758 (9th
Cir. 1985). Accordingly, there was no plain error in the
jury’s ﬁnding of liability against the County as to the
Hardesty plaintiffs.
4. There is substantial evidence in the record to
support the jury’s verdict that the Schneiders had a
vested right which the County abrogated in violation
of substantive due process. The jury was presented
with evidence that the Schneiders had a vested right
and that the County acted arbitrarily and unreasonably in ordering them to cease mining on their property,
thus depriving them of their vested right. We afﬁrm
the jury’s ﬁnding of liability against the County as to
the Hardesty plaintiffs.
5. The Hardestys’ damages award is reversed
and remanded as excessive. The district court abused
its discretion by failing to consider Defendants’ argument that the damages were excessive. “A district
court’s failure to exercise discretion constitutes an

App-6
abuse of discretion.” Taylor v. Soc. Sec. Admin., 842 F.2d
232, 233 (9th Cir. 1988). The award is excessive because it was calculated based on the wrong theory of
recovery. The Hardestys chose to pursue a theory of recovery based on their loss of an ability to practice a
profession as individuals. The jury’s award of $75 million was based on the business’s estimated value if it
continued to operate between 75 and 100 more years.
The value of a business, on the one hand, and the damages resulting from an individual’s inability to practice
his or her profession, on the other, are distinct concepts. Because there was no substantial evidence by
which a jury could conclude that the Hardestys themselves would continue working for over 75 years, the
damages were excessive.
6. The Schneiders’ damages award is also reversed and remanded as excessive. Lost proﬁts were
the wrong measure of damages for their due process
claim. The jury awarded damages for the Schneiders’
substantive due process claim based on the total value
of aggregate ore on their property rather than based
on the diminution in value of the property associated
with increased regulatory costs. The jury did not have
evidence upon which it could have concluded that the
Schneiders lost the entire value of the ore on the land
that they continued to own.
Additionally, the jury failed to account for mitigation in the form of the Schneiders’ recuperation of the
value of the gravel before calculating damages. A reasonable jury could not include the value of the gravel
in the award while accounting for mitigation.

App-7
7. The district court did not abuse its discretion
in failing to offer the County’s proposed jury instruction regarding campaign contributions. The district
court accurately stated the law when it informed the
jury that campaign contributions are constitutionally
protected free speech. The trial court did not abuse its
discretion by declining to give the proposed jury instruction as Defendants formulated it.
AFFIRMED IN PART, REVERSED IN PART, AND
REMANDED. THE PARTIES ARE TO BEAR
THEIR OWN COSTS.

R. NELSON, Circuit Judge, concurring in part and dissenting in part:
I concur in the panel’s determinations that the Individual Defendants are entitled to qualiﬁed immunity
as to the Hardestys’ claims; that the County is liable
for its conduct as to both the Hardestys and the
Schneiders; that the district court abused its discretion
by failing to consider Defendants’ argument that the
damages were excessive; that the Schneiders’ damages
were excessive; and that the district court did not err
in failing to offer the County’s proposed jury instruction regarding campaign contributions. But I dissent
from the panel’s holdings that Dickinson is entitled to
absolute immunity; that the Individual Defendants
are entitled to qualiﬁed immunity as to the Schneiders’
claims; and that the Hardestys’ damages were based
on the wrong theory of recovery.

App-8
First, I would hold Dickinson is not entitled to absolute immunity because his position was not immune
from political inﬂuence. The ultimate question is
whether his role was “functionally comparable” to that
of a judge. Miller v. Davis, 521 F.3d 1142, 1145 (9th
Cir. 2008). As the majority notes, some of the factors
identiﬁed in Miller are present in this case. But the
Supreme Court has emphasized that whether a decisionmaker “exercises his independent judgment on the
evidence before him, free from pressures by the parties
or other ofﬁcials within the agency” is “[m]ore important[ ]” than whether the powers the decisionmaker
exercises are similar to those of a judge. See Butz v.
Economou, 438 U.S. 478, 513 (1978).
Far from being insulated from political inﬂuence,
Dickinson was held liable precisely on the theory that
he violated Plaintiffs’ substantive due process rights to
beneﬁt an inﬂuential competitor. He was an elected ofﬁcial who received campaign contributions and gifts
from a powerful competing mine That same competing
mine argued before the Board of Supervisors over
which Dickinson presided that the Schneiders never
had a vested right, and may have coordinated with the
County to draft ﬁndings of fact for the Board’s approval
after the hearing. And Dickinson received campaign
contributions from that competitor in the two-week
period between the Board’s tentative decision to deny
the appeal and its ﬁnal decision. Granting absolute
immunity under these circumstances shields ofﬁcials
from liability based on supposed independence when
the jury found, and substantial evidence supports,

App-9
precisely the opposite: Dickinson voted to deprive the
Schneiders of their vested right to appease a more powerful competitor.
Second, I would hold the Individual Defendants
are not entitled to qualiﬁed immunity as to the Schneiders’ substantive due process claim. The law was
clearly established as of 1996 that the Schneiders had
a right to mine on their property. Hansen Bros. Enters.,
v. Bd. of Supervisors, 907 P.2d 1324, 1335 (Cal. 1996).
The County recognized that vested right on multiple
occasions before the Schneiders’ competitors began to
complain.
It was clearly established that the Individual Defendants’ conduct violated that vested right. They did
not follow Hansen’s clear instruction that, even if the
County believed that the Schneiders may have been
operating beyond the scope of the vested right, the only
proper action would be to “order the operator to restrict
the operation to its former level, and seek an injunction if the owner does not obey.” Hansen, 907 P.2d at
1351. Instead, the Defendants forced the Schneiders to
shut down all operations, in violation of the Schneiders’ clearly established right. That action was clearly
established as arbitrary and unreasonable by Hansen.
I would therefore hold the Individual Defendants are
not entitled to qualiﬁed immunity as to the Schneiders’
claims.
Finally, I concur with the majority’s holding that
the district court abused its discretion by failing to
consider Defendants’ argument that the Hardestys’

App-10
damages were excessive. But rather than limiting its
holding to the arguments presented by the parties, the
majority holds sua sponte that the award is excessive
because it was based on the wrong theory of recovery.
That argument was not made before this panel, let
alone before the district court. This Court may review
a waived argument in limited circumstances which are
not present here. See Bolker v. Comm’r of Internal Revenue, 760 F.2d 1039, 1042 (9th Cir. 1985) (quotation
marks and citation omitted). As a unanimous Supreme
Court reminded our Circuit earlier this year, “[i]n our
adversarial system of adjudication, we follow the principle of party presentation . . . ‘we rely on the parties
to frame the issues for decision and assign to courts the
role of neutral arbiter of matters the parties present.”
United States v. Sineneng-Smith, 140 S. Ct. 1575, 1579
(quoting Greenlaw v. United States, 554 U. S. 237
(2008)). In short, the Court reminded us, we “do not, or
should not, sally forth each day looking for wrongs to
right. [We] wait for cases to come to [us], and when
[cases arise, we] normally decide only questions presented by the parties.’ ” Id. (quoting United States v.
Samuels, 808 F. 2d 1298, 1301 (8th Cir.1987) (Arnold,
J., concurring in denial of reh’g en banc)). I therefore
do not join the majority’s holding that the Hardestys’
damages were based on the wrong theory of recovery
when Defendants did not at any time present that argument.

App-11
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA
JOSEPH HARDESTY, et al., No.
2:10-cv-02414-KJM-KJN
Plaintiffs,
ORDER

v.
SACRAMENTO
METROPOLITAN AIR
QUALITY MANAGEMENT
DISTRICT, et al.,

(Filed Mar. 31, 2018)

Defendants.
After a lengthy jury trial, the Hardesty and
Schneider plaintiffs obtained a verdict exceeding $100
million against defendant Sacramento County and
three defendant county ofﬁcials based on defendants’
actions the jury determined caused the closure of the
Hardestys’ sand and gravel mine and violated plaintiffs’ constitutional rights under the First, Fourth and
Fourteenth Amendments. Defendants’ Renewed Motion for Judgment as a Matter of Law (“Renewed
JMOL Mot”), ECF No. 537, and Motion for a New Trial
(“New Trial Mot”), ECF No. 538, are before the court.
Plaintiffs oppose the motions, ECF Nos. 547-48, and
defendants have replied, ECF Nos. 550-51. The court
heard oral argument on the motions on October 31,
2017, and then submitted the matters. See ECF No.
554. After careful consideration, for the reasons below,
the court DENIES both motions.

App-12
I.

BACKGROUND
A. Factual Background

Between 2008 and 2012, California and Sacramento County regulators investigated reports that the
Hardesty family was operating a sand and gravel mine
illegally on the Schneider family’s ranch. As a result of
the investigations, regulators ordered the Hardesty
and Schneider families to cease the mining operation;
the Hardesty and Schneider families eventually complied. What happened during the four years from initial reports to closure of the mine forms the core of the
case that went to trial.
According to plaintiffs, after a long period of regulatory disinterest, government ofﬁcials were spurred to
action not by their discovery of any actual legal violations, but by their desire to appease plaintiffs’ competitors as well as state legislators and local politicians
motivated by campaign contributions. Plaintiffs centrally allege the County recognized the Schneiders’
historical right to continue mining on their property,
also called a “vested right,” as early as 1994, but that
defendants then revoked that right in 2009 without
any process and in violation of the Schneiders’ procedural and due process rights. The regulatory action
that followed culminated in the permanent shutdown
of the mining operation. The Schneiders also allege defendants retaliated against them by dramatically increasing in 2012 the ﬁnancial deposit necessary to
continue operating the mine, after they ﬁled this case
in 2010.

App-13
Defendants’ theory of the case was that the
County never revoked plaintiffs’ vested right, if they
had any such right. Instead, in a series of hearings in
2010 and 2011, defendants merely determined that
plaintiffs had expanded the mining operation beyond
its permissible scope. The subsequent regulatory action, including requiring an amended reclamation plan
and greater ﬁnancial assurances, were required under
state law and none of these actions were improperly
motivated.
B. Procedural Background
Following extensive summary judgment practice,
plaintiffs’ case proceeded to trial against the following
defendants: Sacramento County; Robert Sherry, a former Planning Director for the County; Roger Dickinson, a former member of the Sacramento County Board
of Supervisors; and Jeff Gamel, a former Sacramento
County Senior Planner and Aggregate Resources Manager. After a sixteen-day trial held from February 16 to
March 16, 2017, the jury returned a unanimous verdict
on plaintiffs’ Fourteenth Amendment procedural and
substantive due process claims and the Schneiders’ additional claim resting on the First Amendment’s right
to petition clause. See Jury Verdict, ECF No. 469. The
jury found the County, but not the individual defendants, violated plaintiffs’ procedural due process rights,
and awarded nominal damages of $1 to each set of
plaintiffs on these claims. Id. at 2-3. The jury found all
defendants violated plaintiffs’ substantive due process
rights, and awarded $75 million to the Hardestys and

App-14
$30 million to the Schneiders. Id. at 4-5. The jury found
the County, but not the individual defendants, violated
the Schneiders’ right to petition the government for redress, and awarded the Schneiders $30,000 on this
claim Id. at 6. The jury also found each individual defendant’s conduct was “malicious, oppressive, or in
reckless disregard” of plaintiffs’ rights, and awarded
punitive damages in the following amounts: $25,000
against Dickinson, $1 million against Gamel, and
$750,000 against Sherry, with Sherry’s payment broken down as $500,000 for the Hardestys and $250,000
for the Schneiders. Id. at 7-8.
After plaintiffs had rested their case but before the
jury returned its verdict, defendants ﬁled three motions for judgment as a matter of law under Federal
Rule of Civil Procedure 50(a). ECF Nos. 350, 353, 443.
In the ﬁrst motion, defendants asserted they were entitled to judgment as a matter of law because plaintiffs
failed to pursue relief by way of writ in state court, the
County Board of Supervisors’ decision and Board of
Zoning Appeals (“BZA”) decisions had preclusive effect,
the Hardesty plaintiffs were not entitled to notice related to the Hardestys’ procedural due process claims,
the Board of Supervisors’ hearings complied with procedural due process, and plaintiffs’ substantive due
process claims failed. ECF No. 350 at 2-20.
In the second motion, defendants asserted defendants Dickinson and Sherry were not liable for conduct
after 2010 and Dickinson was entitled to absolute immunity for his legislative acts and qualiﬁed immunity
for his executive acts. ECF No. 353 at 2-4.

App-15
In the third and ﬁnal Rule 50(a) motion, defendants contended plaintiffs lacked a federally protected
property interest, plaintiffs received procedural due
process, adequate state process precluded ﬁnding a violation of procedural due process, the only remedy for
a due process violation was to order the process due,
the Hardestys were not entitled to notice or alternately
received actual notice of certain hearings, plaintiffs
failed to exhaust remedies in state court, board determinations were entitled to preclusive effect, plaintiffs’
substantive due process claims failed, all defendants
were entitled to qualiﬁed immunity and Dickinson was
entitled to absolute immunity for some of his conduct,
no evidence permitted a reasonable jury to conclude
defendants retaliated against plaintiffs, no evidence
supported awarding punitive damages, and defendants are entitled to judgment as a matter of law on a
Williamson Act Claim ECF No. 443 at 17-88. These
three motions preserved defendants’ right to ﬁle a renewed motion for judgment as a matter of law. See Fed.
R. Civ. P. 50(a)-(b).
On July 7, 2017, defendants filed a renewed motion for judgment as a matter of law and, in the alternative, for a new trial. See Renewed JMOL Mot.,
ECF No. 537; New Trial Mot., ECF No. 538. As noted,
plaintiffs jointly opposed the motions. Renewed JMOL
Opp’n, ECF No. 547; New Trial Opp’n, ECF No. 548.
Defendants ﬁled replies. Renewed JMOL Reply, ECF
No. 550; New Trial Reply, ECF No. 551. On October 31,
2017, the court heard both motions: Derek P. Cole, Gregory P. O’Dea and Mark O’Dea appeared for defendants;

App-16
R. Paul Yetter, Christian J. Ward and George D. Robertson appeared for the Hardestys; and Glenn W. Peterson appeared for the Schneiders. H’rg Mins, ECF
No. 554; see Hr’g Tr., ECF No. 556.
II.

LEGAL STANDARD
A. Motion for Judgment as a Matter of Law

Federal Rule of Civil Procedure 50(b) governs renewed motions for judgment as a matter of law
(“JMOL”), which may be raised only after the court denies a Rule 50(a) motion for judgment made during
trial. Rule 50(b) provides in pertinent part that the
court may: “(1) allow judgment on the verdict, if the
jury returned a verdict; (2) order a new trial; or (3) direct the entry of judgment as a matter of law.” Fed. R.
Civ. P. 52(b)(1)-(3). In rendering a Rule 50 motion decision, the court views the evidence in the light most
favorable to the non-moving party and draws all reasonable inferences in favor of the non-moving party.
Krechman v. Cty. of Riverside, 723 F.3d 1104, 1109
(9th Cir. 2013) (citing EEOC v. Go Daddy Software,
Inc., 581 F.3d 951, 961 (9th Cir. 2009)). The court may
not make credibility determinations or weigh the evidence. Reeves v. Sanderson Plumbing Prods., Inc., 530
U.S. 133, 150-51 (2000). “[A]lthough the court should
review the record as a whole, it must disregard all evidence favorable to the moving party that the jury is not
required to believe.” Id. at 151.
A Rule 50(b) motion for JMOL is not treated as a
separate motion; instead, it is a renewed Rule 50(a)

App-17
motion. Go Daddy Software, 581 F.3d at 961. Before the
court submits a case to the jury, a party must make a
Rule 50(a) motion for JMOL. Id. If the court denies the
motion, and if the jury returns a verdict against the
movant, the movant may renew its motion under Rule
50(b). Id. As that motion is a renewed motion, it must
be limited to the same grounds as asserted in the prior
Rule 50(a) motion; a party cannot properly “raise arguments in its post-trial motion for judgment as a matter
of law under Rule 50(b) that it did not raise in its preverdict Rule 50(a) motion.” Id. (quoting Freund v. Nycomed Amersham, 347 F.3d 752, 761 (9th Cir. 2003)).
The Ninth Circuit strictly construes the procedural requirements of Rule 50, because failing to move for
JMOL before submission to the jury may “lull the opposing party into believing that the moving party has
abandoned any challenge to the sufﬁciency of the evidence, and thereby prejudice the opposing party.”
Janes v. Wal-Mart Stores, Inc., 279 F.3d 883, 887 (9th
Cir. 2002) (quoting Farley Transp. Co. v. Santa Fe Trail
Transp. Co., 786 F.2d 1342, 1346 (9th Cir. 1986)). Accordingly, a party completely waives an issue that it
failed to ﬁrst raise in a Rule 50(a) motion. Wei Zhang
v. Am. Gem Seafoods, Inc., 339 F.3d 1020, 1028-29 (9th
Cir. 2003).
“The test applied is whether the evidence permits
only one reasonable conclusion, and that conclusion is
contrary to the jury’s verdict.” Josephs v. Pac. Bell, 443
F.3d 1050, 1062 (9th Cir. 2006). The verdict will be upheld if it is supported by “substantial evidence.” First
Nat’l Mortg. Co. v. Fed. Realty Inv. Trust, 631 F.3d 1058,

App-18
1067 (9th Cir. 2011). Substantial evidence means “such
relevant evidence as a reasonable mind might accept
as adequate to support a conclusion,” Fisher v. City of
San Jose, 558 F.3d 1069, 1074 (9th Cir. 2009) (international quotations omitted), “even if it is also possible to
draw a contrary conclusion.” First Nat’l., 631 F.3d at
1067 (international quotations omitted). Judgment as
a matter of law is appropriate, however, when the jury
“could have relied only on speculation to reach its verdict.” Lakeside-Scott v. Multnomah Cnty., 556 F.3d 797,
803 (9th Cir. 2009); id. (citing Barnes v. Arden Mayfair,
Inc., 759 F.2d 676, 680-81 (9th Cir. 1985) (reasonable
inference “cannot be supported by only threadbare conclusory statements instead of signiﬁcant probative evidence”)).
B. Motion for New Trial
The court may grant a motion for a new trial for
any historically recognized grounds for permitting a
new trial. Fed. R. Civ. P. 59(a)(1)(A); Zhang v. Am. Gem
Seafoods, Inc., 339 F.3d 1020, 1035 (9th Cir. 2003).
A grant may be based on claims “that the verdict is
against the weight of the evidence, that the damages
are excessive, or that, for other reasons, the trial was
not fair to the party moving.” Molski v. M.J. Cable, Inc.,
481 F.3d 724, 729 (9th Cir. 2007) (citing Montgomery
Ward & Co. v. Duncan, 311 U.S. 243, 251 (1940)). The
Ninth Circuit has held that a trial court may grant a
new trial “only if the verdict is contrary to the clear
weight of the evidence, is based upon false or perjurious evidence, or to prevent a miscarriage of justice.”

App-19
Passantino v. Johnson & Johnson Consumer Prods.,
212 F.3d 493, 510 n.15 (9th Cir. 2000); cf. Experience
Hendrix L.L.C. v. Hendrixlicensing.com Ltd, 762 F.3d
829, 845-46 (9th Cir. 2014) (“Ultimately, the district
court can grant a new trial under Rule 59 on any
ground necessary to prevent a miscarriage of justice.”).
Courts hold movants to a lower standard of proof
on motions for a new trial than they do on motions for
judgment as a matter of law. Thus, even if the court
declines to grant judgment as a matter of law, it may
order a new trial under Rule 59; in other words, a verdict may be supported by substantial evidence, yet still
be against the clear weight of the evidence. Landes
Const. Co., Inc. v. Royal Bank of Canada, 833 F.2d 1365,
1371-72 (9th Cir. 1987). Unlike a motion for judgment
as a matter of law, in addressing a motion for a new
trial, “[t]he judge can weigh the evidence and assess
the credibility of witnesses, and need not view the evidence from the perspective most favorable to the prevailing party.” Id. Instead, if, “having given full respect
to the jury’s ﬁndings, the judge on the entire evidence
is left with the deﬁnite and ﬁrm conviction that a mistake has been committed,” then the motion should be
granted. Id. (quoting 11 C. Wright & A. Miller, Federal
Practice and Procedure § 2806, at 48-49 (1973)).
However, a motion for new trial should not be
granted “simply because the court would have arrived
at a different verdict.” Pavao v. Pagay, 307 F.3d 915,
918 (9th Cir. 2002); United States v. 40 Acres, 175 F.3d
1133, 1139 (9th Cir. 1999). When a motion for a new
trial is based on insufficiency of the evidence, “a

App-20
stringent standard applies” and a “new trial may be
granted . . . only if the verdict is against the great
weight of the evidence” or “it is quite clear that the
jury has reached a seriously erroneous result.” Digidyne Corp. v. Data Gen. Corp., 734 F.2d 1336, 1347 (9th
Cir. 1984) (internal quotations and citations omitted).
Further, the court should uphold a jury’s award of damages unless the award is based on speculation or guesswork. See City of Vernon v. S. Cal. Edison Co., 955 F.2d
1361, 1371 (9th Cir. 1992). Finally, the “denial of a motion for a new trial is reversible ‘only if the record contains no evidence in support of the verdict’ or if the
district court ‘made a mistake of law.’ ” Go Daddy Software, Inc., 581 F.3d at 962 (citing Molski, 481 F.3d at
729).
Because defendants move both for renewed judgment as a matter of law and a new trial on many of the
same issues, the court applies the standards applicable
to each motion respectively, with its analysis organized
by each claim implicated by the defense motions.
III. SUBSTANTIVE DUE PROCESS
Defendants contend plaintiffs did not offer sufﬁcient evidence to prove they possessed any liberty or
property interests protected by the substantive due
process clause of the Fourteenth Amendment. Renewed JMOL Mot. at 5-9. Defendants also contend the
County’s actions were rational, and plaintiffs failed
to produce sufficient evidence to permit the jury to
find the County’s actions lacked a rational basis, a

App-21
necessary ﬁnding to establish a substantive due process violation. Id. at 10-30.
The Due Process Clause prohibits government ofﬁcials from arbitrarily depriving a person of her constitutionally protected liberty or property interests.
See, e.g., Action Apartment Ass’n, Inc. v. Santa Monica
Rent Control Bd., 509 F.3d 1020, 1025-26 (9th Cir.
2007). But “only ‘egregious ofﬁcial conduct can be said
to be arbitrary in the constitutional sense’: it must
amount to an ‘abuse of power’ lacking any ‘reasonable
justiﬁcation in the service of a legitimate governmental objective.’ ” Shanks, 540 F.3d at 1088 (quoting CV.
of Sacramento v. Lewis, 523 U.S. 833, 846 (1998)); accord N Paciﬁca, 526 F.3d at 484 (“The irreducible minimum of a substantive due process claim challenging
land use regulation is failure to advance any governmental purpose.”). Only conduct that “shocks the
conscience” violates the Due Process Clause. See, e.g.,
United States v. Salerno, 481 U.S. 739, 746 (1987).
In their motions, defendants dispute: (1) the existence of a protected liberty interest; (2) the existence of
some property interests; (3) the sufﬁciency of the evidence to support a ﬁnding that these two interests are
present in this case; and (4) the existence of a vested
right to conduct surface mining operations. The court
addresses these four disputes below.
A. Liberty Interest and Waiver
Defendants contend no plaintiff possessed a liberty or property interest. Renewed JMOL Mot. 6-9.

App-22
Plaintiffs contend defendants have waived this argument. Renewed JMOL Opp’n at 5-7. The court agrees;
defendants waived this argument as explained below.
The right to “follow a chosen profession free from
unreasonable governmental interference comes within
the ‘liberty’ and ‘property’ concepts of substantive due
process. Greene v. McElroy, 360 U.S. 474, 492 (1959).
Plaintiffs contend defendants waived the claim that
plaintiffs lacked any protectable liberty interests by
not raising the claim in their original motions for judgment as a matter of law, as required by Federal Rule of
Civil Procedure 50. Renewed JMOL Opp’n at 5-8. As
discussed above, a Rule 50(b) motion is limited to the
grounds ﬁrst raised before the matter was submitted
to the jury in a Rule 50(a) motion, and a party waives
any issue not ﬁrst asserted in a Rule 50(a) motion. GoDaddy Software, 581 F.3d at 961; Zhang v. Am. Gem
Seafoods, Inc., 339 F.3d 1020, 1028-29 (9th Cir. 2003)
(“The failure to raise this issue prior to the return of
the verdict results in a complete waiver, precluding our
consideration of the merits of the issue.”).
Because defendants addressed only a substantive
due process interest in a vested right to mine in one of
their Rule 50(a) motions, ECF No. 443 at 17-30, defendants have waived the claim that plaintiffs lacked any
cognizable liberty interest, including one based on
their right to pursue a chosen occupation. Defendants
had notice at summary judgment that the court specifically found the Constitution protects two rights
the plaintiffs asserted: “The Hardestys and Schneiders
claim the County defendants stripped them of their

App-23
vested right to operate a surface mine, which deprived
them of their right to pursue their chosen profession
and to devote their land to a legitimate use. The Constitution protects both of these interests.” ECF No. 283
at 65. Further, defendants ﬁled three Rule 50(a) motions, supported by more than 100 pages of brieﬁng.
See ECF Nos. 350, 353, 443. Defendants had ample opportunity to raise and preserve any issues in their Rule
50(a) motions and the record reﬂects they took full advantage of that opportunity. Defendants did not claim
in their Rule 50(a) motions that plaintiffs lacked any
protectable liberty interests. See ECF Nos. 350, 353,
443 at 17-30 (asserting only that plaintiffs have no
“federally protected property interest”). Accordingly,
defendants have waived the argument that plaintiffs
lacked any cognizable liberty interest.
In reply, defendants cite Thompson v. Runnels, 705
F.3d 1089, 1098 (9th Cir. 2013), and United States v.
Pallares-Galan, 359 F.3d 1088, 1095 (9th Cir. 2004), to
argue waiver rules apply only to “the assertion of new
claims, not new arguments regarding a claim that was
already asserted.” Renewed JMOL Reply at 24-25 (emphasis in original). But neither case addresses Rule 50
motions. See Pallares-Galan, 359 F.3d at 1095 (addressing waiver of appellate claims to determine
whether to apply the plain error or the de novo standard of review); Thompson, 70 F.3d at 1098 (addressing
waiver of new arguments albeit in habeas context).
Nor does either case account for the importance of
first raising issues in the Rule 50(a) motion. See, e.g.,
Freund v. Nycomed Amersham, 347 F.3d 752, 761 (9th

App-24
Cir. 2003) (explaining one purpose of ﬁrst raising issues in a Rule 50(a) motion is that “it calls to the
court’s and the parties’ attention any alleged deﬁciencies in the evidence at a time when the opposing party
still has an opportunity to correct them”); Janes, 279
F.3d at 887 (observing that “failing to make a motion
for JMOL at the close of all the evidence may lull the
opposing party into believing that the moving party
has abandoned any challenge. . . .”) (original emphasis,
internal quotation marks and citation omitted).
Defendants themselves proposed instructing the
jury that “the Constitution protects plaintiffs’ interests
in the right to pursue their chosen profession,” further
evincing defendants’ waiver of this argument. ECF No.
317 at 8. Their proposed instruction also stated “plaintiffs allege that defendants . . . deprived them of their
Substantive Due Process Rights under the Fourteenth
Amendment to the Constitution by stripping them of
their right to operate a vested mine, which deprived
them of their right to pursue their own chosen profession.” Id. Defendants cannot now complain that plaintiffs lacked the right to stand on a claim based on their
asserted right to pursue their chosen profession. Despite objecting to a draft ﬁnal jury instruction on substantive due process, ECF No. 427 at 35, defendants
did not object to the court’s instructing the jury “that
the Constitution protects plaintiffs’ interests in the
right to pursue their chosen occupation or profession.”
Id.; see ECF No. 461 at 23-24 (ﬁnal jury instruction
given, stating “the Constitution protects a plaintiffs legitimate interests in his or her property and in the

App-25
right to pursue his or her legitimate, chosen occupation
or profession”).see United States v. Perez, 116 F.3d 840,
845 n. 7 (9th Cir.1997) (holding jury instruction issues
may be waived by defendant’s attorney); United States
v. Baldwin, 987 F.2d 1432, 1437 (9th Cir.1993) (“Where
the defendant himself proposes the jury instruction he
later challenges on appeal, we deny review under the
invited error doctrine.”); Gilchrist v. Jim Slemons Imports, Inc., 803 F.2d 1488, 1493 (9th Cir. 1986) (“A party
who requests an instruction invites any error contained therein and, absent an objection before the instruction is given, waives appellate review of the
correctness of the instruction.”); United States v.
Sumner, 125 F. App’x 118, 120 (9th Cir. 2005) (denying
review under invited error doctrine where defendant’s
counsel proposed jury instruction that mirrored model
jury instruction defendant claimed on appeal was error).
Because the court instructed the jury using wording that was substantively similar to that defendants
proposed, defendants have waived their argument
based on liberty interest under Rule 50 as well as the
invited error doctrine.
B. Property Interest and Waiver
Defendants also contend no plaintiff possessed a
protected property interest. Renewed JMOL Mot. 6-9.
Plaintiffs contend defendants also have waived this argument. Renewed JMOL Opp’n at 5-8. Generally,
‘[t]he right of [an owner] to devote [his] land to any

App-26
legitimate use is properly within the protection of the
Constitution.’ ” Harris v. Cty. Of Riverside, 904 F.2d
497, 503 (9th Cir. 1990) (quoting Washington ex rel.
Seattle Title Trust Co. v. Roberge, 278 U.S. 116, 121
(1928)).
Defendants have waived their claim that the
Hardestys lacked a property interest independent of
the Schneiders. Defendants argued in their Rule 50(a)
motion only that the Hardestys were not entitled to notice under the Surface Mining and Reclamation Act
(SMARA) based on the Hardestys’ inability to cure a
zoning violation. ECF No. 443 at 55-59. Defendants’
claims, that plaintiffs lacked a property interest because they “have not applied for and been denied a conditional use permit” or otherwise failed to comply with
zoning laws, ECF No. 443 at 17-30, do not logically extend to the claim that the Hardestys lacked a property
interest independent of the Schneiders because contending only one party can have that property interest
is distinct from contending only one party could have
had a property interest. Contending neither party had
a property interest in the Rule 50(a) motion would not
have “call[ed] to the court’s and parties’ attention” the
“alleged deﬁciencies in the evidence” about the Hardestys’ lacking a separate property interest distinct
from the Schneiders that defendants now raise.
Freund, 347 F.3d at 761; see Go Daddy, 581 F.3d at 96263. Defendants waived this new claim
But defendants have not waived their claim that
the Schneiders lacked a property interest absent
lead agency approval. Defendants raised the following

App-27
argument in their Rule 50(a) motion: “Plaintiffs’ claim
of a vested right does not create an entitlement to mine
without complying with zoning laws.” ECF No. 443 at
17-19. This argument logically extends to defendants’
Rule 50(b) argument that the Schneiders not only exceeded the scope of any vested right they might have,
but also that the Schneiders could not act upon such a
right until a lead agency approved their reclamation
plan, meaning the Schneiders lacked a property interest absent that approval. Renewed JMOL Mot. at 1822. Thus, the court will address the merits of this argument.
That said, defendants’ claim fails on the merits.
Defendants assert the Schneider plaintiffs “could not
have demonstrated a valid right to mine in any manner contrary to” their reclamation plan because “even
vested-right mining operations are subject to [a statutory] prohibition on substantially deviating from a reclamation plan until lead agency approval is obtained.”
Renewed JMOL Mot. at 7 (original emphasis, citing
Cal. Pub. Res. Code § 2777). However, as explained immediately below, infra III.C., the evidence at trial permitted the jury to infer that the vested right
recognized in the 2002 reclamation plan as attaching
to the Schneider Historical Mine (SHM) covered the
entire SHM tract without limits on production method
or production amount. JX099 Exs. A-G (maps showing
areas covering almost all land within the perimeter
of the SHM tract and maps showing where mining
was projected to occur in the future). In reply, defendants appear to implicitly concede this argument with

App-28
respect to lead agency approval in asserting plaintiffs
“could never have had valid expectations to mine SHM
outside of the mining use recognized in the 2004
County staff letter to Jay Schneider or outside of the
parameters established in the reclamation plan approved in 2002.” Renewed JMOL Reply at 27. Moreover, “[v]ested rights [in mining], if established and
continued, generally cannot be conditioned.” Calvert v.
Cty. of Yuba, 145 Cal. App. 4th 613, 626 (2006). In any
event, the mandatory language of California Public Resources Code section 2776—that a person “shall be
deemed to have vested rights” when meeting certain
requirements—undermines the assertion that plaintiffs required lead agency approval for their asserted
property rights. Unless defendants could show an impermissible expansion of the property rights at issue
here, or a “substantial deviati[on] from” the 2002 reclamation plan, see infra III.D., the jury’s ﬁnding of a
property right is supported by substantial evidence.
C. Evidence of Liberty or Property Interests
Even assuming waiver of some of its Rule 50 arguments, defendants maintain “the [c]ourt does still have
authority to rule” given defendants’ motion for a new
trial. Hr’g Tr.at 20:1-15. The court therefore examines
whether the verdict respecting plaintiffs’ liberty or
property interests was against the clear weight of the
evidence. Passantino, 212 F.3d at 510 n.15.

App-29
1. Liberty Interest in Pursuing a Chosen
Occupation
The clear weight of the evidence admitted at trial
supports the conclusion plaintiffs had liberty interests
in pursuing their chosen occupations. Evidence shows
the Hardestys had a liberty interest in their chosen
occupation as SHM mine operators, e.g., Rep.’s Tr.
(RT)1672:131675:13, 1677:20-24, 1678:3-6 (Hardesty
Test.), and the Schneiders had a liberty interest in
their occupation of owning and maintaining their
ranch property and selling aggregate from their land
to the mining operator and customers. See, e.g., RT
1266:8-1267:6; 1272:23-1274:5 (Schneider Test.). As
part of pursuing their occupation, the Schneiders handled issues such as establishing recognition of their
vested right to mine, negotiating the reclamation plan
and ﬁling annual reports. E.g., JX021; JX099; RT
1294:18-22, 1373:20-1374:20, 1443:25-1444:1, 1499:1116 (Schneider Test.). The jury heard unrebutted testimony that selling mining aggregate to a mining operator has been the Schneiders’ family plan “since 1935.”
RT 1273:14-1274:4 (Schneider Test.). And that sale of
aggregate was “fundamental to the survival of the
ranch” because “the mining income supplemented the
income of the older generation and put the infrastructure back into the ranch to keep the building and the
roads and everything repaired.” Id. 1285:2-22.
The court ﬁnds the clear weight of the evidence
supports a jury determination that plaintiffs had liberty interests in pursuing their chosen occupations.
See ECF No. 469 at 4 (jury verdict ﬁnding violation of

App-30
Hardesty and Schneider plaintiffs’ substantive due
process rights, which requires ﬁnding a federally protected liberty or property interest); ECF No. 461 at 2324 (ﬁnal jury instructions requiring a ﬁnding of either
a “liberty or property interest protected by the Constitution”).
2. Property Interest as Operators and
Landowners
The clear weight of the evidence also supports
plaintiffs’ claim to have property interests in the land
as mine operators and for the Schneiders also, as landowners. For instance, the Hardestys invested 30 years
and millions of dollars into conducting their mining
operations, re-investing earnings, at times millions
of dollars, back into the operation. RT 1673:9-1674:8,
1684:4-18 (Hardesty Test.); 1351:18-24, 1354:11-14
(Schneider testifying to the “well developed ﬁnancial
relationship” between the Schneiders and the Hardestys and the Schneiders’ informed belief that the
Hardestys would have continued their mining operation well into the future). California Public Resources
Code section 2776 supports the existence of a property
right belonging to the Hardestys because that statute
recognizes vested rights for any person “to conduct surface mining operations,” not just landowners, and it
vests that right in a person who has “diligently commenced surface mining operations and incurred substantial liabilities for work and materials necessary for
the surface mining operations.” See Calvert, 145 Cal.
App. 4th at 630-31 (discussing “property rights” that

App-31
“have been founded and deemed vested . . . under
SMARA”).
The court ﬁnds the clear weight of the evidence
supports plaintiffs’ claim to hold property interests as
mine operators, and the Schneiders’ additional claim
to a property interest as landowners.
3. Property Interest in Goodwill of Mining
Business.
The clear weight of evidence shows the Hardestys
also had a property interest in the goodwill of their
mining operation. “The goodwill of one’s business is a
property interest entitled to protection; the owner cannot be deprived of it without due process.” Soranno’s
Gasco, Inc. v. Morgan, 874 F.2d 1310, 1316 (9th Cir.
1989). Here, plaintiffs presented evidence of Joe Hardesty’s building up his mining business over 30 years
and accumulating “over 300 customers.” RT 1677:201678:6 (Hardesty Test.). Hardesty developed “a good
working business relationship” with the Schneiders
and their ranching business. Id. 1678:19-24. Furthermore, the Hardestys were positioned to meet high demand during the economic boom of the mid-2000s. Id.
1679:4-7. Hardesty testiﬁed credibly that he developed
new techniques that allowed him to get the sand and
gravel cleaner more easily and otherwise grow the
business, improving its efﬁciency and allowing for sale
of additional products. Id. 1680:15-17; 1688:19-1689:1.
According to Hardesty, he “had so many” customers because they were satisﬁed with the work he did for

App-32
them. Id. 1688:3-5. This evidence supports a jury determination that the Hardestys held a property interest in the goodwill of their mining operation. See ECF
No. 469 at 4 (jury verdict ﬁnding violation of Hardesty
and Schneider plaintiffs’ substantive due process
rights, which requires ﬁnding a federally protected liberty or property interest); ECF No. 461 at 23-24 (ﬁnal
jury instructions requiring a ﬁnding of either a “liberty
or property interest protected by the Constitution”).
4. Property Interest in Devoting Land to
Legitimate Uses
The clear weight of the evidence cited above supports the ﬁnding of a property interest in devoting land
to legitimate uses as well—notably here, mining operations. Courts have long recognized a property interest
in devoting one’s land to a legitimate use. See, e.g.,
Washington ex rel. Seattle Title Trust Co. v. Roberge,
278 U.S. 116, 121 (1928); Harris v. County of Riverside,
904 F.2d 497, 503 (9th Cir. 1990. And “[m]ineral rights
have long been regarded as an interest in land” under
California law. CCPA No. 1 v. Cty. of Sonoma, 122 Cal.
App. 4th 1614, 1634 (2004).
D. Meaning of Vested Right, Nonconforming
Use, and Scope of Right
Defendants contend they had a legitimate government objective in addressing an impermissibly
expanding nonconforming use at the SHM. Renewed
JMOL Mot. at 17-19. Plaintiffs contend substantial

App-33
evidence supports and the clear weight of the evidence
is not against the ﬁnding that plaintiffs had a vested
right to mine the entire SHM tract, and that vested
right did not limit method or production levels. Renewed JMOL Opp’n at 23-29. Plaintiffs are correct. As
the ﬁrst step in explaining this conclusion, the court
explains the nature of a vested right to mine under
California law.
In California, a person has a “vested right to conduct surface mining operations” if, “prior to January 1,
1976, the person has, in good faith and in reliance upon
a permit or other authorization, if the permit or other
authorization was required, diligently commenced surface mining operations and incurred substantial liabilities for work and materials necessary for the surface
mining operations.” Cal. Pub. Res. Code § 2776(a). This
vested right requires no permit “as long as no substantial changes are made in the operation except in accordance with this chapter.” Id. A surface mining
operation with vested rights must still obtain approval
of a reclamation plan and provide ﬁnancial assurances.
Calvert v. Cty. of Yuba, 145 Cal. App. 4th 613, 617
(2006).
As recognized by the California Court of Appeals,
“In light of the state and federal constitutional takings
clauses, when zoning ordinances or similar land use
regulations are enacted, they customarily exempt existing land uses (or amortize them over time) to avoid
questions as to the constitutionality of their application to those uses.” Id. at 623 (citing Hansen Bros. Enterp., Inc. v. Bd. of Supervisors, 12 Cal. 4th 533, 551-52

App-34
(1996)). These “exempted uses are known as nonconforming uses and provide the basis for vested rights to
such uses.” Id. (citing Hansen Bros., 12 Cal. 4th at 55152).
Here, in 1994, the Sacramento County Senior
Planner, Richard Maddox, accepted evidence of a
vested right to mining on the SHM from Jay Schneider.
JX021. The county did not require Schneider to obtain
a permit, but it did require a reclamation plan and ﬁnancial assurances for all mining activities that had
occurred since January 1, 1976. JX025; see JX072 (inter-department correspondence, dated December 28,
2001, from Environmental Coordinator Dennis Yeast
stating, “Due to a long established practice of mining
the County and State have formally recognized Schneider’s vested right to mine without approval of a Use
Permit.”); JX071 (inter-department correspondence, dated
November 13, 2001, from the Office of the County Counsel to Mr. Yeast, the Environmental Coordinator, stating, “Because the Schneider mine has a vested right to
conduct mining, a use permit is not required under the
Surface Mining and Reclamation Act (SMARA).”).
The County Board of Supervisors approved a ﬁnal
reclamation plan for SHM November 2002, and the
plan has not been amended since. JX099.
The reclamation plan describes the mining
operation this way:
Material is excavated and classiﬁed, processed and stockpiled in anticipation of market demand and seasonal considerations.

App-35
When the stockpiles are sufﬁciently diminished to justify further excavation or when
there is an actual or anticipated market demand for a particular material, then such material is excavated, classiﬁed or processed as
necessary and prudent, thus avoiding unnecessary excavation.
Id., Ex. 099 at 5. The plan anticipated a “low annual
average of sand and gravel mined,” so reclamation was
determined to proceed in annual phases. Id. It also anticipated mining would proceed in three phases. Id.
The ﬁrst area would be mined between 2003 and 2023,
the second between 2023 and 2063 and the third after
2063. Id.
Defendants contend they had a legitimate government objective in addressing nonconforming use at the
SHM based on three impermissibly expanding uses:
(1) “mining outside areas intended to be mined when
the use became nonconforming”; (2) “employing new
mining methods or activities not used at the inception
of the nonconforming use”; and (3) “increasing production levels.” Renewed JMOL Mot. at 17. The court addresses these three contentions below.
1. Mining Outside the Area of the Original
Nonconforming Use
Defendants contend plaintiffs impermissibly expanded their nonconforming use by mining outside
areas intended to be mined when the use became
nonconforming—that is, when the use no longer was

App-36
inconformity with a zoning restriction. Renewed
JMOL Mot. at 17-18; see Hansen Bros., 12 Cal. 4th at
540 n.1. Plaintiffs insist the jury “was entitled to understand” evidence that plaintiffs’ vested right encompassed “all mining activity on the entire [SHM] tract.”
Renewed JMOL Opp’n at 25. A jury ﬁnding that plaintiffs’ vested right to mine encompassed the entire SHM
tract is not against the clear weight of the evidence,
given the state of the law. Nonconforming mining uses
are subject to the “diminishing asset doctrine,” which
permits mining uses to expand into new areas as long
as their owners intended to mine these new areas
when the mining uses became nonconforming. Hansen
Brothers, 12 Cal. 4th at 553. The diminishing asset
doctrine requires: (1) the owners’ manifested objective intentions to mine the new areas; and (2) those
intentions existing at the time their uses became
nonconforming Id. As the California Supreme Court
recognized, “ ‘[s]uch a business must operate, if at all,
where the resources are found.’ If it may not expand, it
cannot continue.” Id. (citing Lockard v. City of Los Angeles, 33 Cal.2d 453, 467 (1949)). “Were the diminishing asset doctrine inapplicable, a mining enterprise
would be required to immediately initiate mining on
all areas of its property lest, under a subsequent zoning change, its right to further mining be extinguished.” Id. at 559.
Defendants concede that “the historical record
concerning what was determined with respect to SHM
in 1994 was, at best, ambiguous.” Renewed JMOL Mot.
at 17. Against this backdrop, this is precisely the type

App-37
of determination a jury was entitled to make as the
factﬁnder. Although defendants observe that a 1994
letter from Richard Maddox to Jay Schneider (JX021)
referenced only two of the SHM parcels, comprising
“only 300 acres of the much larger SHM property,” Renewed JMOL Mot. at 17-18, the 1994 letter also refers
broadly to the “Gravel Mining Operation and “the mining operation.” The jury was entitled to read this letter
as encompassing all mining activity at SHM. On crossexamination, defendant Jeff Gamel acknowledged the
lack of limitations in the 1994 letter, discussed more
fully below. See RT 2060:25-2061:11 (agreeing that
nothing in 1994 letter limited amount of production at
SHM, the quantity of ore or gravel SHM could develop,
the type of excavation or mining operation at SHM, or
nothing that would limit the various kinds of aggregate, sand, gravel, pebbles, etc.). His testimony as to a
lack of limitations also permitted the jury to conclude
the vested right here extended to the entirety of SHM.
Additionally, the approved 2002 reclamation plan
arguably contemplates expansion into new areas at
the time the mining uses became nonconforming. See
JX099. Jay Schneider testiﬁed to his understanding
that the County “completely acknowledged our vested
rights.” RT 1319:4-15. Evidence before the jury reﬂected the County’s understanding was similar. E.g.,
JX141 (e-mail from Aggregate Resources Manager
Mike Winter describing 2002 reclamation plan proceeding as “the hearing to declare the mine’s vested
status and to approve the reclamation plan”); PX568 at
145:21-24 (BZA hearing transcript in which County

App-38
Counsel stated the “Reclamation Plan and that issue
of what is vested pursuant to SMARA was decided at
the time that the current Reclamation Plan was approved by the Board of Supervisors in 2002.”).
Maps attached to the 2002 reclamation plan also
permitted the jury to infer plaintiffs’ vested right to
mine at the SHM encompassed the entire tract, including expansion into new areas. These maps featured a
bold-dotted line for the entire “PERIMETER OF THE
SCHNEIDER HISTORIC MINING TRACT” and show
areas covering almost all land within the perimeter of
the SHM tract. JX099, Exs. A-G. Additionally, other
maps show areas where mining was projected to occur
in the future. Id., Exs. F-G; see also, e.g., JX071 (internal memorandum from Michele Bach, Supervising
Deputy at Ofﬁce of County Counsel, to Dennis Yeast,
Environmental Coordinator, noting 2002 reclamation
plan showed areas to be mined in the future); RT
387:8-13, 400:10-17 (testimony of plaintiffs’ expert BlyChester about reclamation plan maps distinguishing
“pre-1976 mined areas” from “things that had intended
to be mined” and that “the Hardesty operations” were
“[c]ompletely within” areas covered by the 2002 reclamation plan); RT 674:17-675:5 (defendant Sherry testimony acknowledging reclamation plan map shows
areas that have been mined and areas not yet mined).
Defendants’ own lack of clarity about the maps associated with the 2002 reclamation plan supports the
conclusion that a jury ﬁnding that plaintiffs’ vested
right encompassed the entire SHM tract was not
against the clear weight of the evidence. For instance,

App-39
defendant Dickinson testiﬁed that “[i]t looks like a
good portion of that map has been shaded” when asked
if the shaded areas of the map looked limited to Dickinson. RT 1196:19-21. Although Dickinson testiﬁed
that he “would eyeball it at less than half,” Dickinson
also testiﬁed that he did not know “what it [the shading] means.” Id. 1196:22-1197:1. Defendant Gamel testiﬁed the maps were “very confusing because of the
color overlay.” RT 2063:17-19. And defendant Sherry
testiﬁed that he “can’t tell” and did not “know what the
colors mean” in reference to maps with legends indicating estimates as to where mining likely would occur
in the next 20, 40, and 100 years at the time the plan
was adopted. RT 701:6-704:20.
To support their contention that plaintiffs impermissibly expanded their nonconforming use, defendants refer to evidence that County staff had referred to
SHM as a “small scale operation.” Renewed JMOL
Mot. at 19 (citing JX084 at 6:22). But the jury also
heard and saw evidence that the Hardesty mining operation remained a relatively “small operation” compared with competitors such as Teichert, Vulcan and
Granite. Compare, e.g., JX 484 at 24 (reported tonnage
level for SHM at above 610,000 tons per year), with
JX671 at 31-33 (describing Teichert quarry in Sacramento County producing 135 million tons from pits up
to 200 feet deep and Granite quarry producing 354 million tons from a pit up to 400 feet); RT 508:9509:1,
515:2-516:6 (Gamel Test.); RT 551:6-16 (Wheatley
Test.). Thus, the jury could reasonably infer the SHM

App-40
mining operation was still a relatively small-scale operation despite any expansion within the SHM tract.
In support of their impermissible expansion contention, defendants also observe “[t]he historical information Jay Schneider had provided the County prior
to the 1994 letter did not expressly reference any intent to mine” the area near the Cosumnes River, “well
north of Meiss Road,” or “to mine the area to the extent
it was being excavat[ed] by 2010.” Renewed JMOL
Mot. at 18. Defendants also point to evidence of plaintiffs’ excavating new pits near the Cosumnes River,
north of Meiss Road. Id. (citing JX 484 at 22, showing
no pit near the river in 2004, and JX 484 at 23, showing
pit as of 2007). Defendant Gamel also testiﬁed to his
opinion that some of plaintiffs’ mining in 2009 was not
located in the area set out for mining between 2002
and 2022 in the 2002 Reclamation plan. RT 2164:182165:17; see JX099 at 15-16. But none of this evidence
necessarily undercut the substantial evidence elsewhere in the record—notably, the 2002 reclamation
plan maps and related testimony –, as discussed above,
that plaintiffs’ vested right included the areas plaintiffs mined in 2009 at the time they were mining. Nor
are Gamel’s opinion combined with a lack of historical
evidence originally submitted by Schneider against
the clear weight of the evidence in support of the verdict here: the County’s 1994 letter spoke broadly about
the SHM tract, the 2002 reclamation plan and its various maps were before the jury as evidence, and defendants themselves testiﬁed to a lack of clarity about
the various maps in the 2002 reclamation plan. In sum,

App-41
the evidence defendants cite does not shift the clear
weight of the evidence.
Altogether, there was substantial evidence to support a jury ﬁnding that the plaintiffs’ vested right to
mine encompassed the entire SHM tract. And in light
of defendants’ own uncertain testimony and the other
evidence of record, it is not for this court to override
the jury’s verdict given that the jury’s ﬁnding that the
vested right to mine encompassed the mining plaintiffs
engaged in at the time was not against the clear weight
of the evidence.
2. Employing New Mining Methods
Defendants rely on Endara v. City of Culver City,
140 Cal. App. 2d 33, 38 (1956), to assert that “[n]ew
types of mining methods added after the nonconformity are prohibited,” including as relevant here plaintiffs’ excavating riverbed aggregate near the banks of
the Cosumnes River. Renewed JMOL Mot. at 17 n.14,
18. Here again, it is the court’s job to review the evidence of record in light of the law, rather than to write
on a clean slate. Performing this exercise, the court
concludes that substantial evidence supports a ﬁnding
that the vested right incorporates mining methods in
place through 2010.
As noted above, Sacramento County’s 1994 letter
stated that information submitted by Jay Schneider
“has been accepted as evidence of vested interest and
therefore, we are not requiring a use permit for the
mining operation.” JX021. That letter does not impose

App-42
any limitations on production methods. Id. In fact, Jay
Schneider informed the county by submitting historical drill logs (JX001), with historical materials submitted by letter (JX011), that mining methods at SHM
had historically varied and might change depending on
technological and market conditions; at times in the
1940s, mining areas were located along the river
and river terrace. RT 1302:22-25, 1308:3-15, 1312:211313:16. Although defendants refer to this historical
material as providing only “vague indications,” Renewed JMOL Mot. at 18, the jury heard Schneider’s
testimony and the historical material was admitted
into evidence; it was for the jury to weigh the information in the context of the complete trial record. Defendant Gamel also testiﬁed the 1994 letter contained
nothing that would limit the type of excavation or mining operation on SHM. RT 2061:6-8. Nor does the 2002
reclamation plan contain limits on the type of mining.
JX099. Taking all of the evidence of record into account, the clear weight of the evidence does not contravene a ﬁnding that plaintiffs’ vested right incorporates
the mining methods plaintiffs used through 2010.
3. Increasing Mining Production Levels
Substantial evidence supports the jury’s ﬁnding
that plaintiffs’ vested right included varying production levels based on demand. The defendants’
argument that plaintiffs’ increased production in
subsequent years was an impermissible expansion of
a nonconforming use is unavailing. See Renewed
JMOL Mot. at 18-19.

App-43
According to defendants, “nonconforming mining
uses are only entitled to ‘gradual and natural’ increases in production” to “meet the demands of population growth.” Renewed JMOL Mot. at 17 (citing
Hansen Brothers, 12 Cal. 4th at 573). That plaintiffs
expanded, enlarged, relocated, and increased annual
production by over ten times over ﬁfteen years was not
disputed. JX287; JX483; JX484; DXA at 80. The dispute, however, is whether this increase was such that
it exceeded plaintiffs’ vested right. Defendants argue
plaintiffs increased production too rapidly, speciﬁcally
pointing to the increase from 10,000 tons in 1995 to
“over 240,000 tons” by 2007. Renewed JMOL Mot. at
18-19. Defendants cite Jay Schneider’s trial testimony
that the SHM operation historically had produced between 5,000 and 25,000 tons per year. RT 1477:201478:12. Additionally, defendants note when plaintiffs
sought approval of their reclamation plan in 2002, the
mining operation was described as a “small scale tailing mining operation”—a mining operation separating
the valuable fraction of an ore from the uneconomic
fraction—that at the time mining ceased there would
be at most a “maximum of 4.5 acres” per year of disturbed area and from which they expected “low annual
production.” JX080 at 5, 11. Defendants contrast those
stated 4.5 acres per year with an inspection ﬁnding a
total of 90 acres disturbed as of 2009 and 176 acres
disturbed as of 2010, JX526 at 8, three to ﬁve times the
4.5 acre yearly projection.
Yet other substantial evidence supported a jury
ﬁnding that the production increase was limited to

App-44
meeting population increases such that the increase
remained within the scope of plaintiffs’ vested right.
Much of the evidence shows no volume-based limitation on the vested interest. For instance, as noted
above as well, evidence permitted the jury’s ﬁnding
that the vested right was not limited in production levels except by the boundaries of the SHM tract. The
1994 letter from the County’s Richard Maddox describing the vested right says nothing at all about production volume. JX021. Defendant Gamel conceded it was
correct that nothing in the 1994 letter limited the
amount of production from the SHM, nothing limited
the quantity of ore or gravel that the mine could develop and nothing would limit the various kinds of aggregate. RT 2060:25-2061:11. Schneider testiﬁed that
the historical use of SHM showed variation in how
much “material was excavated in a short period of
time.” RT 1302:22-25. Intensity in mining also varied
over time. Id. 1308:6-15, 1314:7-1315:23. Even the
2002 reclamation plan does not state a limit on the
quantity of production. JX099. In fact, the reclamation
plan speciﬁcally observes, ‘Material is excavated and
classiﬁed, processed and stockpiled in anticipation of
market demand and seasonal considerations.” JX099,
Ex.099, at 5.
Furthermore, as stated in Hansen Brothers, 12
Cal. 4th at 573, “where increased population creates an
increased demand for the aggregate used in road construction, an increase in production to meet that demand would not be construed as an enlargement or
intensiﬁcation of the use.” See id. (“Neither an increase

App-45
in the number of patrons or in the volume of goods sold
[for a hypothetical grocery store operating as a lawful,
nonconforming use] would be considered an enlargement or intensiﬁcation of the use”). Between 2003 and
2008, demand for mining aggregate increased. JX131,
139, 157, 230, 341. The jury heard testimony and received evidence that there was a critical shortage of local aggregate for Sacramento County. RT 395:11-396:2
(Bly-Chester Test.); RT 505:1-24 (Gamel Test.). On
March 23, 2009, Gamel, who was then Aggregate Resources Manager for the County, made a presentation
to the Board of Supervisors about the “Importance
of Aggregate Materials,” especially the importance of
having a local supply, and noted the critical shortage
of local supply in the Sacramento region, which he reported was “Less than 10% of the 50-Year Need.”
JX671. In this same presentation, Gamel urged the
County to prioritize huge quarries operated by large
operators Teichert, Granite and other participants who
entered into a funding agreement with the County to
meet the critical need for local aggregate. Id. at 30-32;
RT 507:1-10 (Gamel Test.).
This substantial evidence supports the implicit
jury ﬁnding that the vested right included varying production levels based on demand, and the clear weight
of the evidence is not against such a ﬁnding. See ECF
No. 469 at 4 (jury verdict ﬁnding violation of Hardesty
and Schneider plaintiffs’ substantive due process
rights, which requires ﬁnding a federally protected liberty or property interest); ECF No. 461 at 14 (ﬁnal jury
instruction stating “[t]he Schneiders’ claimed right to

App-46
mine or allow mining on their land is based on their
ownership of the land and the history of mining on the
land, which they say gave rise to the vested right to
mine”).
Because substantial evidence supports a jury
finding that plaintiffs had a vested right to mine the
entire SHM tract without limitation as to method or
production levels, defendants’ argument they had a
legitimate government objective in addressing an impermissibly expanding nonconforming use also is unavailing.
The court now turns to the parties’ contentions regarding defendants’ violation of plaintiffs’ substantive
due process rights.
E. Violation of Substantive Due Process Rights
As discussed above, substantial evidence supported the conclusion that plaintiffs had a vested right
to mine the SHM tract without limits on methods or
production. A substantive due process claim requires a
showing of government ofﬁcials’ arbitrarily depriving
a person of her constitutionally protected liberty or
property interests—here, the vested right to mine See,
e.g., Ass’n, Inc. v. Santa Monica Rent Control Bd., 509
F.3d at 1025-26. This deprivation must lack a legitimate governmental objective. Shanks, 540 F.3d at
1088. If plaintiffs’ vested right has not impermissibly
expanded, then defendants have no legitimate governmental interest in curtailing that vested right. But the
parties dispute whether an improper motivation can

App-47
show lack of a legitimate governmental objective and
whether plaintiffs suffered a complete deprivation of
their vested right. The court addresses these remaining disputes below.
1. Improper Motivation
Defendants contend improper motivation alone
is insufficient to establish lack of a legitimate governmental purpose. Renewed JMOL Mot. at 27 n.32;
Renewed JMOL Reply at 8. The court disagrees. Numerous cases detail the relevance of improper motivations in the context of substantive due process claims.
For instance, in Del Monte Dunes v. City of Monterey,
920 F.2d 1496, 1508 (9th Cir. 1990), the Ninth Circuit
determined a substantive due process claim must be
heard at trial where plaintiffs asserted that a city
council “abruptly changed course” and rejected a plan
motivated “not by legitimate regulatory concern but by
political pressure from neighbors and other residents
of the city to preserve the property as open space.” The
appellate court ruled this substantive due process
claim must go to trial despite the district court’s previous reliance on “the afﬁdavits and exhibits the parties
had submitted” to dismiss plaintiffs’ due process claim.
Id. at 1507. Like defendants in Del Monte Dunes, defendants here changed course in their vested rights determinations after being the subject of political
pressure. Substantial evidence showed defendants recognized plaintiffs’ vested right in operating the SHM
for years before abruptly changing course and taking
steps to deprive plaintiffs of their vested right. See e.g.,

App-48
JX021 (1994 letter recognizing vested right); JX 099
(2002 reclamation plan recognizing vested right);
JX287 (April 2009 letter asserting plaintiffs’ mining
was “not protected by [plaintiffs’] vested right” without
notice or a hearing). Substantial evidence of record was
available to support the jury’s decision: there was information on political inﬂuence brought to bear from
at least one competitor mining company, Teichert, in
the form of contributions to funding a County employee
position; holding multiple meetings with County employees and discussing the Hansen Brothers decision
as it relates to plaintiffs; drafting ﬁndings and providing them to County staff for use in the County’s ruling
on the SHM; and signing a renewed funding contract
with the County the day after the Board rejected the
Schneiders’ appeal. See JX506; JX508. See, e.g., JX 356;
JX363; JX392; JX487; JX506-JX508; RT 341:23-343:7,
370:11-19 (Winter Test.); RT 534:15-23; RT 1232:71233:13. This substantial evidence supports the jury’s
implicit ﬁnding that defendants lacked a legitimate
governmental interest in depriving plaintiffs of their
vested right to mine See ECF No. 469 at 4 (jury verdict
ﬁnding violation of plaintiffs’ substantive due process
rights); ECF No. 461 at 23-24 (requiring ﬁnding defendants’ conduct lacked “any reasonable justiﬁcation
in the service of a legitimate governmental purpose” to
establish defendants’ conduct was arbitrary as a required element of plaintiffs’ substantive due process
claim); Swenson v. Siskiyou Cty., 498 F. App’x. 719, 721
(9th Cir. 2012) (holding summary judgment was not
proper “because, viewing the evidence most favorably to [the plaintiff ], he raised a genuine dispute of

App-49
material fact as to whether defendants acted in an arbitrary and irrational manner when they invalidated
a vested property interest due to political or other considerations”).
In Lockary v. Kayfetz, 917 F.2d 1150, 1155 (9th Cir.
1990), the Ninth Circuit held “the rational relation test
will not sustain conduct by state ofﬁcials that is malicious, irrational or plainly arbitrary.” Despite acknowledging that “a water moratorium may be rationally
related to a legitimate state interest in controlling a
water shortage, [plaintiffs] ha[d] raised triable issues
of fact surrounding the very existence of a water shortage.” Id. Like the Lockary plaintiffs, the Schneider and
Hardesty plaintiffs presented substantial evidence—
discussed above—to support their position that they
had engaged in no impermissible expansion of a vested
right to mine at the SHM. Even if defendants’ actions
could be rationally related to a legitimate state interest in regulating vested rights in mining operations,
substantial evidence supported the conclusion there
was no impermissible expansion of the plaintiffs’
vested right. The Lockary defendants’ refusal to issue
water hookups to plaintiffs is analogous to defendants
here refusing to afﬁrm plaintiffs’ vested right.
Ninth Circuit case law also details a violation of
substantive due process rights where a defendant singles out “one individual to be treated discriminatorily.”
Bateson v. Geisse, 857 F.2d 1300, 1303 (9th Cir. 1988).
Here, substantial evidence was available in the record to support a conclusion plaintiffs were singled
out in contrast to other vested right holders. See RT

App-50
990:23-25 (Storelli testifying she had “never heard of
[a vested mine] that lost its vested right”).
Contrary to defendants’ contentions, Renewed
JMOL Mot. at 20-26, acting “simply to ensure compliance with all the applicable rules” may not be sufﬁcient
on its own to defeat claims the defendants acted “in
an arbitrary and unreasonable manner” and with “improper” motives, especially where demands and burdens placed on the plaintiff “were unique to that
plaintiff.” David Hill Dev., LLC v. City of Forest Grove,
No. 3:08-CV-266-AC, 2012 WL 5381555, at *25 (D. Or.
Oct. 30, 2012). At least one court in this district has
recognized “that a defendant’s ‘invention’ of an illegitimate reason to support a land use action and regulation can be arbitrary and capricious.” Merrill v. Cty.
of Madera, No. 1:05-CV-0195 AWI SMS, 2013 WL
1326542 at *7 (E.D. Cal. Mar. 29, 2013). Here, substantial evidence indicates the burdens defendants placed
on plaintiffs were unique—again, as a county ofﬁcial
testiﬁed, she had “never heard of [a vested mine] that
lost its vested right.” RT 999:23-25 (Storelli Test.).
Defendants still contend any conceivable basis for
their legitimate conduct defeats plaintiff ’s substantive
due process claims as a matter of law. Renewed JMOL
Mot. at 19. Defendant relies on Shanks v. Dressel, 540
F.3d 1082, 1089 (9th Cir. 2008), in which the Ninth Circuit found it “fairly debatable” that the city “rationally
furthered its legitimate interest in facilitating residential housing in a residential neighborhood by issuing a
building permit to the [plaintiff ]s.” Id. Yet the court
also observed there was “no suggestion . . . of a sudden

App-51
change in course, malice, bias, pretext, or, indeed, anything more than a lack of due care on [city defendant’s]
part.” Id. In contrast here, there was significant evidence on which the jury could have relied of defendants’ improper motive and abrupt change from
recognizing plaintiffs’ vested right from 1994 to 2009
until defendants’ April 2009 letter changing course.
JX021 (1994 letter); JX099 (2002 reclamation plan);
JX288 (April 2009 letter informing plaintiffs they do
not have a vested right to mine and ordering plaintiffs
to cease mining operations).
Defendant also cites Squaw Valley Development
Co. v. Goldberg, 375 F.3d 936, 944, 946 (9th Cir. 2004),
to argue evidence of “improper motive” or an “impermissible motive” is limited to equal protection
claims. But the cited case made no such pronouncement. Considering all of the authority cited above, the
court observes an improper motivation may undercut
a showing of some legitimate governmental interest
under Ninth Circuit law sufﬁcient to establish a substantive due process violation. Substantial evidence
supported the jury’s ﬁnding of improper motivation by
defendants here.
2. Evidence of Improper Motivation
Because defendants argue in their motion for a
new trial that plaintiffs “failed to offer sufﬁcient evidence that the County and individual [d]efendants
acted arbitrarily,” New Trial Mot. at 3, the court
addresses the clear weight of the evidence as to

App-52
defendants’ improper motivation. The court ﬁnds the
clear weight of evidence of improper motivation does
not run counter to the jury’s ﬁnding of defendants’ liability for substantive due process violations.
Upon careful review, the trial record is replete
with evidence that permitted the jury to conclude defendants ceased to recognize plaintiffs’ vested right
based on improper motivation, and not a legitimate
governmental interest. For instance, the jury could
reasonably have concluded this decision was based on
an improper motivation in the form of political pressure from donors. As part of a funding contract negotiated with a select few, competitor Teichert and two
other large mining competitors committed large sums
of money to ﬁnance the County’s regulation of mining,
including funding the salary and beneﬁts of a full-time
Aggregate Resources Manager to inspect all mining
operations in the County; this full-time position was
ultimately ﬁlled by defendant Jeff Gamel. E.g., JX508;
RT 341:23-343:7, 370:11-19 (Winter Test.). No other
mining company could join the funding contract without the consent of all parties, including the large mining companies who were original signatories. JX508 at
6, §9. Evidence also shows Teichert’s taking concerted
steps to inform various government ofﬁcials and agencies about Hardesty, one of its competitors. E.g., JX507
(Teichert Strategy Matrix about Hardesty Sand and
Gravel and including Teichert interactions with the
County); JX375 at 2 (detailing importance of County,
which, as lead agency, “ha[d] the biggest handle,” and
stating that “everything else will pile on top of it”; see

App-53
also, e.g., RT 438:2-6 (Gamel testifying that County, as
lead agency, governs mining operations within County).
The jury did receive in evidence in an email from
Teichert employee John Lane to defendant Gamel,
copying Teichert attorney Kate Wheatley, stating
Teichert’s motivation was simply “a call for fairness
and level playing ﬁeld.” JX143. Wheatley testiﬁed she
had the same understanding as to Teichert’s intentions
with respect to the SHM. RT 622:2-11. It was for the
jury to weigh this evidence, and the jury was entitled
to disregard it and credit the other evidence before it.
Evidence also permitted the jury’s implicit ﬁnding
that political pressure was applied through multiple
meetings involving Teichert, Dickinson, Gamel, Sherry
and others from 2009 through 2010. E.g., JX363;
JX392; JX487; JX507. Counsel for Teichert even informed County counsel of its view that the Hansen
Brothers decision “did not sanction the substantial increase in production” occurring at SHM in response to
County counsel’s concerns that Hansen Brothers prevented the County from requiring a permit. JX356 (December 2009 email chain). Gamel also acknowledged
having “heard something like that” in connection with
Teichert’s lawyers drafting ﬁndings and providing
them conﬁdentially to the BZA staff for the Board of
Supervisor’s ruling on the SHM. RT 534:15-23. Gamel
acknowledged a conﬂict of interest if Teichert provided
draft ﬁndings for the Board to use in rejecting the appeal of the SHM, even if the ﬁnal fmdings did not track
Teichert’s proposed language. Id. 2082:12-19. The clear

App-54
weight of this evidence does not run counter to a jury
ﬁnding of political pressure exerted by Teichert.
A conclusion that Teichert exerted political pressure may also have been supported by evidence of the
timing of campaign contributions to Dickinson and
funding contributions to the County. RT 1229:9-1232:6
(Dickinson Test.). Although Dickinson testiﬁed he did
not pay attention to when contributions were made
and did not know immediately if a contribution was
made, Dickinson did conﬁrm an entry in his campaign
ﬁnance records, which “are a matter of public record,”
showed Teichert made a contribution to him the day
before the September 28, 2010 hearing at which the
Board rejected the Schneiders’ appeal. Id. 1231:8-19.
On a separate note, the day after that hearing denying the SHM appeal, Teichert signed a renewed
funding contract with the County for the Aggregate
Resources Manager position. Id. 1232:7-1233:13; see
JX506; JX508.
The jury also could have given weight to additional evidence in ﬁnding that County decisions were
based on personal or political loyalties to Teichert. For
instance, after the ﬁrst full-time Aggregate Resources
Manager, Mike Winter, took another position within
Sacramento County, defendant Gamel replaced Winter.
RT 370:11-19. Before Winter took his new position, he
had conferred with Teichert’s attorney and asserted
the SHM was a vested mine RT 369:6-25; JX141;
JX143. Gamel, Winter’s replacement, had already engaged in communication with Teichert about the SHM:
Before attaining the Aggregate Resources Manager

App-55
position, Gamel had responded to Teichert’s complaint
that “[t]he Hardesty operation continues to expand its
[sic] operations and sales without any federal, state, or
local permits and operate under the thinly veiled guise
of vested rights,” by informing Teichert, “We will see
what we can do.” JX143 (September 2007 e-mail
chain).
Evidence of other close communications with
Teichert is not scarce in this record. For instance, in
the same e-mail in which he thanked Teichert for
the holiday gifts of cookies and olive oil, to which he
“look[ed] forward each year,” Gamel informed Teichert
he was working with the Ofﬁce of Mining and Reclamation (OMR) to partner on the site inspection of the
SHM and stated, “We will let you know of any new developments.” PX676. Soon after, on December 23, 2008,
OMR inspected the mine, looking for potential violations. PX676; RT 457:20-459:25, 546:3-24 (Gamel
Test.); RT 1769:21-1770:12 (Hardesty Test.).
The jury also may have given weight to Gamel’s at
times conﬂicting testimony about his interactions with
Teichert. He denied, in his deposition before trial, of
any 2007 communications with Teichert. RT 463:12-16
(Gamel Test.). At trial, Gamel did not “recall any conversations in 2007” with Teichert about the SHM, and
he stated, “I don’t know why I would be” when asked if
he should not have been talking to Teichert about
SHM. Id. 464:18-24. Yet an email chain and Gamel’s
testimony eventually revealed Teichert’s sending Gamel
aerial photographs of the SHM and complaining about
Hardesty Sand & Gravel while telling Gamel to be

App-56
discrete—all before Gamel was appointed as Aggregate Resources Manager. JX143; RT 465:3-467:18
(Gamel Test.). As noted, Gamel had informed Teichert,
“We will see what we can do.” JX143; RT 468:10-14
(Gamel Test.). Contrary to his earlier deposition testimony, Gamel eventually admitted at trial that he had
been talking with Teichert about Hardesty Sand &
Gravel since 2007. RT 468:1-20. By 2008, Gamel had
called the Army Corps of Engineers and told them
about Teichert’s interest in the Hardesty mining operation. JX152. While the jury was reminded in standard
jury instructions that naturally people sometimes forget things, it also was charged with ultimately making
decisions regarding credibility. ECF No. 461 at 8 (Final
Jury Instruction No. 7, instructing the jury in part that
“You may believe everything a witness says, or part of
it, or none of it” and instructing the jury it may account
for “the witness’s memory”). Gamel’s vacillating about
his communications with Teichert permitted the jury
to infer some level of improper motivation in the context of the other evidence of political ties and pressure
reviewed above.
Teichert communicated with other County employees as well. Even if those communications in themselves were a common practice of a large company
doing business in the County, the jury was entitled
them to consider them in the context of all the evidence
presented in resolving plaintiffs’ claims. As noted,
Teichert communicated its concerns about competition from Hardesty to the County. E.g., JX507 at
9-11 (Teichert Strategy Matrix detailing contacts with

App-57
County ofﬁcials); RT 580:1-20, 587:4-589:4 (Wheatley
Test. about Teichert Strategy Matrix, including “tactics
or developments” to pursue for “the [SHM]” and list including Dickinson, Gamel, and Sherry as contacts); RT
585:7-15 (Wheatley Test. of multiple meetings between
Teichert and the County, including Gamel); JX132
(John Lane complaining that Hardesty was “now attempting to steal our customers through the sale of
very cheaply priced product”); JX141 (August 2007
e-mail chain between Winter and Teichert lawyer
Wheatley about vested status of Hardesty Sand &
Gravel operation at SHM); JX143; JX234 (January
2009 e-mail chain setting up meeting between Gamel,
Winter, and lawyers for Teichert); JX392; JX434. Defendants Dickinson, Sherry and Gamel were among the
“primary contacts” between Teichert and the County.
JX507; RT 587:16-588:11 (Wheatley Test.). These regular contacts and the open communication lines between Teichert, County employees and defendants
themselves demonstrate the clear weight of the evidence is not against a jury ﬁnding of defendants having an improper motivation in determining plaintiffs
lacked a vested right.
The jury’s conclusion was further supported by the
County’s repeatedly ordering plaintiffs to stop mining
altogether despite an increased demand for mining
aggregate in Sacramento County. Compare JX287,
JX421, JX447, RT 528:10 (Gamel acknowledging the
April 2010 letter “does say shut down” if plaintiffs do
not get a use permit and rezone), RT 714:17-20 (Sherry
acknowledging “[w]e did not” tell plaintiffs they could

App-58
scale back their mining operation to their original
vested right and continue mining), and RT 1461:9-14
(Schneider testifying about an order saying “cease
mining operations immediately, initiate an application for an amended reclamation plan within seven
days, initiate reclamation of pits”), with JX131, JX139,
JX157, JX230, JX341, JX671 (Gamel presentation
on shortage of local supply), RT 395:11-396:2 (BlyChester Test.), and RT 505:1-24 (Gamel Test.). In his
presentation discussing a shortage of local supply,
Gamel speciﬁcally urged the County to prioritize huge
quarries operated by Teichert, Granite and other participants in the funding agreement with the County
to meet the critical need for local aggregate. JX671
at 30-32; RT 507:1-10 (Gamel Test.). But on crossexamination during trial, Gamel was asked: “But the
last thing you want to do is lose an actual existing
source of sand and gravel in Sacramento County, true?”
He answered: “I would say that’s true, yes.” RT 514:810. Yet signiﬁcantly, neither Gamel nor Sherry ever
suggested—or apparently considered suggesting—the
option of plaintiffs’ paring back their mining during a
permitting process to some smaller scale tied to the
County’s initial recognition of their vested right, consistent with Hansen Brothers, 12 Cal. 4th at 575.
Taken together, the evidence reviewed here provided substantial support for a conclusion that defendants operated with an improper motive. It is not the
only conclusion the jury could have reached, but it is
not the court’s job to reweigh the evidence and superimpose its own conclusions after the fact. When

App-59
considered together with the substantial evidence supporting the conclusion that plaintiffs had a vested
right to mine and did not impermissibly expand that
vested right, the court cannot rule as a matter of law
that defendants should have prevailed on plaintiffs’
substantive due process claims because defendants
had a legitimate governmental objective. Nor can the
court ﬁnd the clear weight of the evidence above
weighs against the jury verdict in favor of plaintiffs on
substantive due process claims. See ECF No. 469 at 4
(jury verdict ﬁnding County and Sherry liable for violation of Hardesty plaintiffs’ substantive due process
rights and County, Sherry, Dickinson and Gamel liable
for violation of Schneider plaintiffs’ substantive due
process rights).
3. Complete Deprivation
Notwithstanding the evidence that could have
supported the jury’s conclusion of an improper motivation, defendants contend there was no “complete” or
“total” substantive due process violation and the verdict therefore conﬂicts with Dittman v. California, 191
F.3d 1020, 1029 (9th Cir. 1999). Renewed JMOL Mot.
at 5-6. In Dittman, the plaintiff challenged a requirement to disclose his social security number as part of
an application for an acupuncture license and the court
deemed this requirement a “ ‘complete prohibition’ on
entry into a profession that implicates a person’s liberty interest in pursuing an occupation or profession of
her own choice.” Id.

App-60
Here, substantial evidence supported the jury’s
ﬁnding the plaintiffs experienced a complete deprivation of their substantive due process rights. Although
defendants contend the County’s later permit requirement was not a complete or “total prohibition on their
ability to engage in the occupation of mining,” Renewed JMOL Mot. at 6-7, case law is clear that “[a]
mineral extractive operation is susceptible of use and
has value only in the place where the resources are
found, and once the minerals are extracted it cannot
again be used for that purpose.” Hansen Bros., 12 Cal.
4th at 553. Thus, action prohibiting mining at SHM is
a total prohibition or complete deprivation of any associated substantive due process rights. Even requiring
a permit to mine is a complete deprivation of the
vested right to mine because that permit is not necessary when one has a vested right to mine See Cal. Pub.
Res. Code § 2776(a) (“No person who has obtained a
vested right to conduct surface mining operations . . .
shall be required to secure a permit. . . .”).
The April 2009 letter sent to plaintiffs evinces a
complete deprivation because the letter did not provide
the option for plaintiffs to scale back their mining operations to “its former level,” with the County then
“seek[ing] an injunction if the owner does not obey” as
dictated by Hansen Brothers. 12 Cal. 4th at 575. Instead, that letter ordered plaintiffs to cease mining operations completely until they obtained a permit,
which required meeting conditions that had the effect
of ending the mining operation as explained below.
JX287. As defendant Gamel admitted, this letter

App-61
informed plaintiffs they did not have a vested right in
the property. RT 526:21-527:1 (Gamel Test.). The letter
stated the County had found that “the mining that is
presently occurring on your property is not protected
by your vested right, and the only remedy to permit
you to continue mining on the property is to ﬁle for and
receive approval of a conditional use permit and rezone.” JX287. Gamel, who authored the letter, testiﬁed
that the County “came to a conclusion that” SHM was
not “still a vested operation” before April 2, 2009. RT
524:16-18. Gamel further testiﬁed that this determination was entirely unilateral, with no notice or hearing
to plaintiffs: “We did not have a hearing. This was an
internal matter.” Id. 525:6. Gamel ultimately agreed
that, with no public hearing, the County simply told
Schneider and Hardesty they did not have a vested
right any more. Id. 525:10-15.
The deprivation stemming from the April 2009 letter remained a complete or total deprivation because
subsequent hearings about the SHM did not permit
adjudication of plaintiffs’ claim to an underlying
vested right. E.g., RT 2081:9-11 (Gamel testifying that
vested right “was not the issue before the Board of Supervisors”); RT 2257:14-19 (Derby testifying that hearings before Board of Supervisors and BZA concerned
the notices of alleged zoning violations, not reafﬁrmation of the vested right); RT 1214:8-24 (Dickinson testifying that 2010 appeal to Board was about a violation
of the zoning code and “was not focused or directed to
whatever vested right there may have been”); RT
999:12-19 (Storelli testifying that if one needs a

App-62
conditional use permit, one by deﬁnition would not be
in possession of a vested right). In the County hearings, Dickinson proclaimed his view that the vested
right simply did not exist. E.g., JX483-101:17. During
trial, however, as noted above, a County ofﬁcial testiﬁed, she had “never heard of [a vested mine] that lost
its vested right.” RT 999:23-25 (Storelli Test.).
Hardesty’s own testimony about the dismantling
of his mining business and his loss of livelihood provided strong evidence from which the jury could have
concluded the Hardestys in particular suffered a complete and total deprivation. Hardesty testiﬁed that defendants’ conduct forced him to sell off his expensive,
handcrafted equipment for scrap, let all his employees
go and incur $5 million in debt, borrowed from family and friends. RT 1739:6-17, 1746:15-24, 1748:191752:10. Hardesty explained his equipment was “not
so movable” because it included “big conveyor belts,” so
he felt he had no choice but to have “sold and scrapped
it.” Id. 1789:16-1790:3.
Schneider’s testimony also provided the jury with
information it could reasonably have relied on to conclude he suffered a complete deprivation. Schneider
testiﬁed he attempted to have another mine operator
take over after defendants shut down the Hardesty operation. RT 1140:22-25 (Light Test.); 1333:7-1336:4
(Schneider Test.). But it was not feasible for another
operator to resume mining in light of the County’s refusal to continue recognizing the vested right and its
requirement that Schneider obtain a conditional use
permit, rezone his land, and post a large bond before

App-63
allow mining to continue, a process that witnesses
testified could take ten years and cost millions of dollars. E.g., RT 1140:22-25 (Light Test.); 1333:7-1336:4,
1337:25-1338:3 (Schneider Test.); 1707:21-1708:5
(Hardesty Test.); 2255:22-25 (Derby Test.).
The evidence reviewed above is substantial and
supports the jury’s determination that Hardesty and
Schneider each experienced a complete deprivation of
their vested right to operate the SHM, resulting in the
destruction of their respective leasehold interest, mining operation and livelihoods connected with the mine
Based on the above, the clear weight of the evidence
also does not run counter to the jury’s verdict ﬁnding
substantive due process violations.
F. Jury Instructions on Vested Right
At hearing defendants asserted the court cannot
ﬁnd that the jury properly found a vested right without
the court’s having provided a jury instruction clarifying that the Hansen Brothers case “allow[s] a local public entity to make a decision” about the impermissible
expansion of the vested right, “which is allowed to have
some degree of expansion by its very nature.” Hr’g
Tr. at 55:20-56:4. Defendants did not raise this issue
in their brieﬁng. See Renewed JMOL Mot.; Renewed
JMOL Reply; New Trial Mot.; New Trial Reply. Nevertheless, the court addresses this argument because the
vested rights issue is at the heart of this case.
Defendants’ belated contention conﬂicts with their
objection at trial “to any instructions to the jury on

App-64
procedural and substantive due process that are in any
way premised on the theory that the defendants improperly and impermissibly revoked plaintiffs’ alleged
vested right to mine.” ECF No. 427 at 1. Defendants in
fact proposed striking an entire set of proposed instructions on “California Mining Law and Vested
Rights,” including instructions on the Hansen standard. Id. at 29-32. The court ultimately did not instruct
the jury on the Hansen Brothers case, though the court
did instruct the jury that the Schneiders claimed a
“vested right to mine.” ECF No. 461 at 14. The court
ﬁnds defendants have waived this argument under the
invited error doctrine.
Regardless, the jury did not need instruction on
the Hansen Brothers case to understand the factual
dispute between the parties about a vested right to
mine, and the law applicable to it. Resolving that factual dispute based on the instructions the court did
give permitted the jury to make the legal determination about the existence of a legitimate governmental
interest asserted by defendants—that the plaintiffs’
lack of vested right, or expansion beyond that vested
right, permitted the assertion of a legitimate governmental interest in regulating mining activity and
avoiding environmental damage and attendant costs
shouldered by the public. The jury found, based on the
evidence before it, that this asserted interest was not
a legitimate interest. Defendants’ own testimony on
the confusing nature of the 2002 reclamation plan
maps and the County’s prior 1994 determination of
plaintiffs’ rights provided the jury with a factual basis

App-65
to disbelieve defendants’ assertion of having only a legitimate interest, offered in the face of plaintiffs’
claims; the jury was free to weigh the County’s position
along with the totality of the evidence, including the
evidence that could support the conclusion of improper
motive. It was, as noted elsewhere, for the jury to make
credibility determinations among conﬂicting narratives. On the trial record, the jury was entitled to determine whether the County staff actually concluded
the SHM nonconforming use had impermissibly expanded or if County staff instead reached that conclusion pretextually in response to political pressure from
plaintiffs’ competitor.
G. Excessive Damages
Defendants also contend a new trial must be
granted because the jury’s award of $105 million for
substantive due process violations was based on an improper measure of damages. New Trial Mot. at 4-5. According to defendants, “The proper measure of damage
should have taken into account the difference in the
fair market value of the SHM property as a result of
the [p]laintiffs’ loss of the right to continue their mining operation.” Id. Additionally, defendants contend
plaintiffs relied on the inherently unreliable testimony
of expert witness Gilbert Coleman to justify asking for
excessive substantive due process damages. Id. at 5-6.
At hearing, defendants conceded their excessive
damages challenge was limited to “[their] Rule 59
motion” and was “not a basis for [their] Rule 50(b)

App-66
motion. . . .” Hr’g Tr. at 46:9-21. The court therefore addresses defendants’ excessive damages claims under
Rule 59 only. Courts “will not disturb an award of damages on appeal unless it is clearly unsupported by the
evidence.” Chalmers v. City of Los Angeles, 762 F.2d
753, 760 (9th Cir. 1985). “An otherwise supportable verdict must be afﬁrmed unless it is ‘grossly excessive’ or
‘monstrous’ or ‘shocking to the conscience.’ ” Id. (citation omitted). Under Rule 59, having carefully considered this question, the court does not ﬁnd the damages
awarded excessive, monstrous or shocking to the conscience.
1. Proper Measure of Damages
According to defendants, as noted, “The proper
measure of damage should have taken into account the
difference in the fair market value of the SHM property as a result of the [p]laintiffs’ loss of the right to
continue their mining operation.” New Trial Mot. at 45. The court disagrees.
The jury was instructed that “[d]amages means
the amount of money that will reasonably and fairly
compensate the plaintiffs for any injury or loss you ﬁnd
was caused by the defendants.” ECF No. 461 at 28. Lost
proﬁts and business expenses, a form of injury or loss,
are an appropriate measure of damages in cases involving violations of due process rights. For instance,
in Chalmers, plaintiff was entitled to a damages award
including “initial cost” and “net proﬁt” when the defendant city violated plaintiff ’s due process rights by

App-67
preventing her from operating her T-shirt vending
business. 762 F.2d at 755-56, 760. Additionally, in Silver Sage Partners, Ltd. v. City of Desert Hot Springs,
251 F.3d 814, 817-19 (9th Cir. 2001), the Ninth Circuit
concluded a jury award of damages, including lost profits, was not against the clear weight of the evidence
when the defendant city council failed to approve
plaintiffs mobile home park project.
Here, plaintiffs face a situation not unlike that of
the plaintiff in Chalmers although the size of the two
businesses appears quite different. Here, municipal
defendants violated plaintiffs’ due process rights by
shutting down and preventing operation of the SHM.
See also Benigni v. City of Hemet, 879 F.2d 473, 475,
480 (9th Cir. 1988) (refusing to disturb jury award of
compensatory and punitive damages where police ofﬁcers harassed bar owner, eventually forcing him to
sell at a loss). The jury was instructed to apply—and is
presumed to correctly apply—this measure of compensation “for any injury or loss,” which would include lost
proﬁts and business expenses. See Weeks v. Angelone,
528 U.S. 225, 234 (2000) (“[A] jury is presumed to follow its instructions.”). Such a measure is appropriate
and serves the purpose of awarding damages in § 1983
actions, to compensate the aggrieved party. Chalmers,
762 F.2d at 760 (citing Carey v. Piphus, 435 U.S. 247,
254-55 (1978))
Defendants instead cite to Herrington v. Sonoma
County, 834 F.2d 1488, 1498 (9th Cir. 1987), contending
the appropriate measure of damages is inverse condemnation based on a denial of all viable use of the

App-68
land. In that case, plaintiffs owned a parcel of farmland
they wished to develop into a residential subdivision,
and their substantive due process claim arose from a
preliminary decision by defendant county that temporarily thwarted the planned development. Id. at 1490.
Unlike the plaintiffs here, the plaintiffs in Herrington
did not have a long-running, successful business operation tied to an occupational liberty interest. The loss
suffered by plaintiffs here was not merely the lost
value of the land itself, but instead the lost value of the
dismantled mining operation that had sustained plaintiffs for many years. In other words, a difference in the
value of the land itself does not capture the harm suffered by the aggrieved parties. Damages based on
losses from plaintiffs’ dismantled mining operation—
the loss of a liberty interest, not solely a property interest—appropriately measure the damages in this
case. In arriving at a dollar amount, the jury had before it evidence that supported the conclusion defendants’ conduct forced SHM to permanently close, and
Hardesty to sell his expensive handcrafted equipment
for scrap at a loss of “[a]pproximately $1.7 million.” RT
1791:1-2. This case is therefore closer to Chalmers, 762
F.2d at 755-56, 760, and Benigni, 879 F.2d at 475, 480,
than to Herrington. And, unlike there plaintiffs in Herrington, who “never had the ‘right’ to construct a 32unit subdivision,” 834 F.2d at 1504, the plaintiffs here
originally had a recognized vested right to conduct the
mining operation.

App-69
2. Reliable Expert Testimony
Defendants contend the substantive due process
damages were excessive, in part because they were
based on Gilbert Coleman’s “inherently unreliable” expert testimony. New Trial Mot. at 5-6. Here as well, the
court disagrees. The substantive due process damages
are supportable by evidence before the jury, including
Coleman’s testimony. Although defendants correctly
identify problems with Coleman’s testimony, including
Coleman’s contradictions in relying on different sets of
tax returns, defendants themselves highlight Coleman’s other testimony that supports the jury verdict.
Coleman’s testimony bore some indicia of reliability. For instance, Coleman testiﬁed that he determines
value by looking at proﬁtability and other factors. RT
1521:4-24. Coleman considers the track record of a
business to make his calculations, which here included
Hardesty Sand & Gravel’s success for 30 years as a
proﬁtable business with a strong local demand for aggregate. RT 2369:2-23; see also JX671 (Gamel presentation on critical shortage of aggregate in Sacramento
County).
Although Coleman’s testimony about his reliance
on tax returns was not reliable (see RT 1622:24-1623:21,
1624:12-1626:20, 1627:21-1628:3, 1628:4-1634:18), the
jury was exposed to the unreliability and able to weigh
it subject to proper instruction. Defendants admit Coleman provided a revised valuation based on a $1-perton payment the Schneiders were supposed to receive.
RT 1654:1-25, RT 2104:14-23. Moreover, Coleman

App-70
testiﬁed that, based on the information he had seen, he
had no doubt there was enough sand and gravel at the
SHM to last for the next 100 years at the production
levels he had observed. RT 1576:1-5. Coleman based
this testimony on discussions with Hardesty and
Schneider. RT 1575:19-22. Coleman’s conclusion is consistent with Hardesty’s testimony, based on Hardesty’s
excavating “hundreds of test holes on th[e] [Schneider]
ranch,” that he “could easily mine at the rate of pace
that [he] was for another 75 or 100 years real easy.” RT
1747:1-20, 1748:2-5 (Hardesty Test.); see also JX11; JX
13 (test holes excavated by Schneider family); Silver
Sage, 251 F.3d at 819-21 (concluding damages expert’s
assumption was supported by “fully consistent” testimony from plaintiff partner).
Schneider’s testimony also supports Coleman’s
conclusion about the quantity of sand and gravel at the
SHM. For instance, Schneider testiﬁed there were at
least “27 million tons of material that we know is in
reserves,” which has “been mapped out” and known
“for years and years and years.” RT 1348:18-21. And
Schneider also testiﬁed that one can sell aggregate to
purchasers “from stockpiles . . . or from reserve areas
that haven’t been mined yet.” RT 1273:1113. Those
stockpiles have existed since the 1930s, with “[a] great
deal of them in the Forties and early Fifties.” RT
1309:25-1310:3.
Contrary to defendants’ suggestion, Coleman was
not restricted to the testimony of expert Jeff Light as
the basis for forming his conclusions about the aggregate reserves and their ability to sustain the Hardesty

App-71
mining business over the coming decades. Light testiﬁed only as to certain areas, comprising only a part of
the total acreage of the Schneider ranch, and not the
entire SHM tract. See RT 1117:21-1121:8. The jury was
entitled to assess the testimony of Hardesty and
Schneider independently, as well as Coleman’s reliance
on their testimony in his calculations.
Observing all of these facts, the court does not ﬁnd
the substantive due process damages awarded to the
Schneiders excessive or against the clear weight of the
evidence. If the jury applied the $1-per-ton price for the
Schneiders, considered by Coleman during his testimony, to Schneiders’ testimony of at least 27 million
tons in reserves, the jury would have arrived at a calculation of $27 million in damages, discounted to $21
6 million using Coleman’s methodology of multiplying
$27 million by 0.8. See RT 2383:15-21 (Coleman Test.).
After adding the $6.43 million in past losses deemed
admitted by the court (RT 2392:10-13), a total damages
calculation for the Schneiders’ substantive due process
claim would be $28.03 million. In light of Schneider’s
testimony and Hardesty and Coleman’s testimony on
mining for another 75-100 years, a jury crediting those
statements and calculating damages based on 30 million tons—establishing a total of $30.43 million in
damages after discounting—is not excessive. Defendants’ own suggested average tax return values for
the Schneider family—$404,776 per year, New Trial
Mot. at 7 n.2, and an alternative measure from the
$1-per-ton measure of damages—would still permit a
jury award of $30,716,560 after discounting Coleman’s

App-72
methodology and including the $6.43 million in past
losses, if the jury credited as it could have at least 75
more years of operation of the SHM based on the collective testimony of Hardesty, Schneider, and Coleman.
IV.

PROCEDURAL DUE PROCESS

Defendants contend plaintiffs were provided procedural due process as a matter of law, and insufﬁcient
evidence supported the jury verdict that the County violated the due process rights of the Hardesty and
Schneider plaintiffs. Renewed JMOL Mot. at 30; New
Trial Mot. at 18. The court disagrees.
Due process requires not just notice but also, crucially, the “opportunity to be heard at a meaningful
time and in a meaningful manner.” Mathews v. Eldridge, 424 U.S. 319, 333 (1976) (internal quotation
marks omitted). In most circumstances, the Constitution requires a hearing before the government deprives
a person of liberty or property. Zinermon, 494 U.S. at
127.
California law requires agencies to resolve claims
of vested rights to conduct a surface mining operation
through public hearings. Calvert, 145 Cal. App. 4th at
629 (citing Cal. Pub. Res. Code § 2776). The hearings
must follow procedures similar to those required for
approval of land use permits. Id. at 626. These hearings must determine the issues of “existence, nature
and scope” of the asserted rights under a constitutional
procedure. Id. at 629. The Calvert court held “that if an
entity claims a vested right pursuant to SMARA to

App-73
conduct a surface mining operation that is subject to
the diminishing asset doctrine, that claim must be
determined in a public adjudicatory hearing that
meets procedural due process requirements of reasonable notice and an opportunity to be heard.” Id. at
617. In the Hansen case referenced above as well, the
California Supreme Court has outlined the proper process in a case in which a county believes a mining operator has exceeded the scope of their vested right: “the
county may order the operator to restrict the operation to its former level, and seek an injunction if the
owner does not obey.” Hansen Bros., 12 Cal. 4th at 575.
These “[v]ested rights, if established and continued,
generally cannot be conditioned.” Calvert, 145 Cal.
App. at 626. Once a vested rights determination under
SMARA is ﬁnal and no longer subject to review, “property rights n have been founded and deemed vested.”
Id. at 630.
A. Initial Vested Right Determination
Because the procedural due process violation here
involves a claim of deprivation of plaintiffs’ right to due
process before the County deprived plaintiffs of their
vested right to mine, the court ﬁrst addresses the evidence establishing plaintiffs’ vested right.
As discussed previously, the evidence at trial permitted the jury to ﬁnd that the County recognized a
broad-ranging vested right in a 1994 letter and reafﬁrmed it in the 2002 reclamation plan. See JX021;
JX099. Approval of the vested right determination

App-74
involved a formal proceeding in connection with approving the reclamation plan in 2002. See, e.g., JX141
(August 2007 e-mail from Winter to Teichert lawyer
Wheatley describing 2002 reclamation plan proceeding
as “the hearing to declare the mine’s vested status and
to approve the reclamation plan”). County counsel
later advised the BZA that the scope of the vesting had
been determined by the Board of Supervisors in 2002
and could not be revisited: “That Reclamation Plan and
that issue of what is vested pursuant to SMARA was
decided at the time that the current Reclamation Plan
was approved by the Board of Supervisors in 2002.”
PX568 at 145:21-24. In its 2002 adoption of the reclamation plan, at a noticed public hearing, the Board of
Supervisors expressly noted the reclamation plan’s appealability. JX71 at 2. No one ever appealed the 2002
reclamation plan approval. Substantial evidence
therefore permitted the jury to infer plaintiffs’ vested
right existed as early as 1994 or at least by 2002, and
the clear weight of the evidence is not against a ﬁnding
that plaintiffs had a vested right to mine at SHM by
2002.
B. Deprivation without Process: The April 2009
Letter
Defendants contend the County’s April 2, 2009 letter asserting plaintiffs’ mining was “not protected by
[plaintiffs’] vested right” (JX 287) was not self-executing and therefore did not deprive plaintiffs of a vested
right. Renewed JMOL Reply at 22-23; Hr’g Tr. at 13:13. Substantial evidence permitted the jury to infer the

App-75
opposite—that the April 2, 2009 letter deprived plaintiffs of their vested right to mine without any hearing—and the clear weight of the evidence is not against
such a ﬁnding.
Substantial evidence supports the conclusion the
letter did not contemplate any process related to a determination of plaintiffs’ vested right. As defendant
Gamel testiﬁed, the 2009 letter informed Schneider
and Hardesty they did not have a vested right to mine
on the Schneider property. RT 526:21-527:1 (Gamel
Test.). The letter, penned by defendant Gamel and
signed by defendant Sherry (JX287; RT 685:11-20,
687:7-19, 687:24-25), stated the County had found that
“the mining that is presently occurring on your property is not protected by your vested right, and the only
remedy to permit you to continue mining on the property is to ﬁle for and receive approval of a conditional
use permit and rezone.” JX287.
Defendants direct the court to Sherry’s testimony
that the April 2009 letter, instead of being a unilateral
deprivation of a vested right, was a request for plaintiffs “to contact Jeff Gamel” for a “further dialogue . . .
about this situation.” RT 691:18-19. However, when
asked about the 2009 letter’s content with respect to
an enforcement action, Sherry responded “[t]here was
no speciﬁc enforcement action intended.” Id. 752:5-14.
Sherry contended the letter only threatened an enforcement action for failing to ﬁle a permit within 30
days “to convey to Mr. Schneider that it was important
to respond to this letter.” Id. 752:15-19. That no one
from the County replied to a response letter sent by

App-76
Schneider’s counsel reinforces Sherry’s testimony that
no enforcement action, with attendant procedures, was
intended based on the April 2009 letter. See JX302; RT
752:22-755:7 (Sherry Test.). Thus, this letter and the
related testimony permitted the jury to infer the
County made a vested rights determination prior to
sending the letter, without any form of hearing. Such a
determination was in direct conﬂict with the holding
in Calvert.
Defendants also suggest a September 14, 2010
presentation by Gamel and Derby to the Board of Supervisors is evidence that the April 2009 letter was not
self-executing. There, Gamel and Derby characterized
“Code Enforcement” zoning violation notices issued in
April and May 2010 as enforcing the “April 2009” determination by the “Planning Director . . . that a Use
Permit and a Re-zone was required” and the “continuing operation” of the Mine following that April 2009 determination as “in violation of the Sacramento Zoning
Code.” JX484 at 4. This evidence was before the jury;
the jury reasonably could have found it lended further
support to a determination that the April 2009 letter
communicated a decision that plaintiffs no longer had
any vested right to mine and had no way to contest the
decision.
Additional testimony supports the conclusion the
County made its vested rights determination without
any form of process. Gamel, who authored the letter,
testiﬁed that he and others “came to a conclusion that
it was not” “still a vested operation” before April 2,
2009. RT 524:16-18 (Gamel Test.). Gamel further

App-77
testiﬁed that this determination was entirely unilateral, with no notice or hearing to plaintiffs: “We did not
have a hearing. This was an internal matter.” Id. 525:6.
Gamel agreed that, with no public hearing, the County
simply told Schneider and Hardesty they no longer had
a vested right. RT 525:10-15. Gamel conﬁrmed the
County “did not give them any advance notice,” explaining “[t]his was our ﬁrst letter to them regarding
that issue.” RT 526:19-20.
The jury was therefore entitled to infer that defendants never had any intention of opening a dialogue
and that the April 2, 2009 letter operated as a deprivation of plaintiffs’ vested right to mine without any form
of process, much less the process prescribed by Hansen
Brothers, 12 Cal. 4th at 575: ordering restriction of
mining to a deﬁned level of vested right and seeking
an injunction if plaintiffs did not obey. Furthermore,
the clear weight of the evidence is not against the
jury’s ﬁnding that the County violated plaintiffs’ due
process rights by depriving them of their vested right
to mine without the required process under Calvert,
Hansen Brothers, and the U.S. Constitution.
C. Opportunity to Be Heard
Defendants contend plaintiffs had sufﬁcient opportunity to be heard at Board of Supervisors hearings in 2010. Renewed JMOL Mot. at 30-36. But this
argument is unavailing because those hearings presupposed plaintiffs’ lack of a vested right to mine at
the SHM tract.

App-78
Substantial evidence permitted the jury to conclude that the Board of Supervisors hearings in 2010
did not involve a vested rights determination. For instance, when asked whether the Board in September
2010 “afﬁrmed the vested rights of the Schneider Historic Mine,” Gamel testiﬁed, “That was not the issue
before the Board of Supervisors.” RT 2081:9-11. Similarly, Tammy Derby testiﬁed that the hearings before
the Board and BZA concerned notices of alleged zoning
violations, not reafﬁrmation of the vested right. RT
2257:14-19. Defendant Dickinson testiﬁed that the
2010 appeal to the Board was about a violation of the
zoning code and “was not focused or directed to whatever vested right there may have been.” RT 1214:8-24.
Additionally, Cindy Storelli testiﬁed that if one needs
a conditional use permit, one by deﬁnition is not
vested. RT 999:12-19. In the course of the hearings, Jay
Schneider “asked more than once why the board would
not deal with the issue of the vested right. RT 1495:610 (Schneider Test.). In response to his questions,
“They would say things like, you just lost it. They
would say things—Mr. Dickinson would say things
like, I don’t know if you had that vested right. The
same one he voted for. . . . The different staff members
would have different reasons to say we’re not recognizing it. You lost it.” Id. 1495:11-19. And “all of the
hearings . . . based on . . . alleged zoning violations” followed because of the County’s position that the vested
right it had recognized in 1994 and reafﬁrmed in 2002
no longer existed. Id. 1498:4-13. This evidence permitted the jury to infer that the Board of Supervisors hearings did not address at all plaintiffs’ vested rights.

App-79
Thus, these hearings could not serve as an opportunity
to be heard as required to satisfy due process and Calvert.
Substantial evidence from the County hearing
transcripts themselves supports a jury ﬁnding that the
2010 hearings did not provide post-deprivation process
addressing the County’s vested right determination.
Supervisor Notolli and County counsel clariﬁed the
September 14, 2010 hearing was “not on a vested right
determination . . . just on whether a zoning code violation” occurred,” and County counsel informed the
Board of Supervisors that Schneider would need to “go
across the street to the courts” to argue the vested
right determination. JX483 at 69:14-70:23. County
counsel also informed the BZA during its hearings that
the vested rights determination was not at issue there:
“That Reclamation Plan and that issue of what is
vested pursuant to SMARA was decided at the time
that the current Reclamation Plan was approved by
the Board of Supervisors in 2002.” PX568 at 145:21-24.
Despite this staff report and the transcripts of past
proceedings, defendant Dickinson stated in the hearings his view that the vested right simply did not exist.
E.g., JX483-101:17. Although plaintiffs presented some
discussion at the hearings through counsel about
vested rights and the effect of Hansen Brothers, (e.g.
PX 568 at 17-18, 100-02, 140, 170, 418), their counsel’s
statements were not considered on the merits. The
court does not ﬁnd the clear weight of the evidence is
against a jury ﬁnding that the 2010 hearings did not
provide a form of post-deprivation process addressing

App-80
the County’s deprivation of plaintiffs’ vested right to
mine.
Evidence from the hearing transcripts themselves
also supports a ﬁnding that plaintiffs did not have an
opportunity to be heard in other ways during these
hearings. See, e.g., PX 568 at 364-367 (Board of Supervisors voting without permitting testimony from plaintiffs); see also RT 1341:16-1342:20 (Schneider Test.);
RT 1344:11-1345:2 (Schneider testimony that his attorneys were denied opportunities to cross-examine
other witnesses or ask their own witnesses questions
at a hearing); RT 1450:19-23 (Schneider testimony
that they were not allowed to answer the County’s argument). At other times, evidence showed plaintiffs did
not have access to notice of the charges or relevant documentary evidence. See, e.g., RT 811:1-3, 811:17-812:4
(Carl Simpson, code enforcement ofﬁcial, testifying
Schneider was unable to obtain ﬁle underlying a violation notice despite other cases having such a ﬁle);
JX289 at 12:21-23; see also JX289 at 13:19-14:2; JX 469
at 8:10-21 (Dickinson stating “all those things in the
record . . will be made available to you” when they were
not available at that time to plaintiffs). The jury therefore had substantial evidence to infer plaintiffs were
denied procedural due process rights throughout the
2010 hearings, and the clear weight of the evidence is
not against such a ﬁnding.

App-81
D. Remedy
1. Waiver
According to plaintiffs, defendants waived argument as to the appropriate remedy for a procedural
due process violation because they “conceded that a
procedural due process violation can support an award
for compensatory ‘damages for the actual injury occasioned by the violation of plaintiffs’ right to due process.’ Renewed JMOL Opp’n at 64 (citing ECF No. 443
at 13, 16). However, defendants expressly asserted
“[e]ven if plaintiffs were not provided due process, the
remedy is for plaintiffs to be provided the process they
were due.” ECF No. 443 at 13, 16. Defendants have
therefore preserved their argument as to the appropriate remedy for a procedural due process violation here.
2. Appropriate Remedy
Defendants contend the remedy for a procedural
due process violation is to order the process due, not to
present the case to the jury for an award of damages.
Renewed JMOL Mot. at 48-49. But the Supreme Court
authority defendants cite underscores that nominal
damages are a correct result, if not the automatic minimum, when a plaintiff proves denial of procedural due
process but not actual injury resulting from the procedural denial itself. Carey, 435 U.S. at 266 (“[W]e believe
that the denial of procedural due process should be actionable for nominal damages without proof of actual
injury.”). “By making the deprivation of such rights actionable for nominal damages without proof of actual

App-82
injury, the law recognizes the importance to organized
society that those rights be scrupulously observed. . . .”
Id. at 266. Defendants’ citation to Brady v. Gebbie, 859
F.2d 1543, 1551 (9th Cir. 1988), supports the possibility
of ordering “the process that was due” only in addition
to “any attendant damages which directly resulted
from the failure to give the proper procedure.” Defendants have not shown plaintiffs are not entitled to nominal damages as a matter of law, and the clear weight
of the evidence is not against the jury verdict awarding
nominal damages.
V.

FIRST AMENDMENT RETALIATION

Defendants contend “undisputed evidence shows
that the demand for [a] greater ﬁnancial assurance
[from plaintiffs to fund reclamation at their mining operation] was the result of a process that had begun almost two years before” the Schneider plaintiffs ﬁrst
brought this case. Renewed JMOL Mot. at 56. Defendant asserts that process was based on inspections indicating plaintiffs “had substantially deviated from the
SHM reclamation plan.” Id. In other words, “there was
utterly no temporal connection between the Schneiders’ ﬁling of their lawsuit in late 2012 and the demand for the increased ﬁnancial assurance.” Id. at 57.
Defendants’ argument is unavailing given the totality
of the record before the jury. Substantial evidence permitted a jury inference that defendants took action
against the Schneider plaintiffs for ﬁling suit against
defendants and the clear weight of the evidence is not
against such a ﬁnding.

App-83
A First Amendment retaliation claim has three elements: (1) plaintiff was engaged in protected activity;
(2) defendant’s actions injured plaintiff in a way that
would chill a person of ordinary ﬁrmness from further
protected activities; and (3) defendant’s actions were a
response to plaintiff ’s exercise of constitutionally protected conduct. Corales v. Bennett, 567 F.3d 554, 563
(9th Cir.2009). These elements were captured in the
court’s Final Jury Instruction 21, ECF No. 461 at 2627, which told the jury the Schneiders were required to
prove that: (1) their rights to petition for redress to the
County and the courts were protected under the First
Amendment; (2) the County took action against the
Schneider Plaintiffs; and (3) chilling or punishing the
Schneider Plaintiffs’ protected conduct was a substantial or motivating factor for the County’s action. Defendants do not contest the sufﬁciency of the evidence
as to the ﬁrst or third element, but only as to the second. See generally Renewed JMOL Mot.; Renewed
JMOL Reply; New Trial Mot.; New Trial Reply.
Substantial evidence supported the jury’s ﬁnding
that the County took action against the Schneider
Plaintiffs in response to the plaintiffs’ ﬁling suit, and
that the action came in the form of dramatically increasing a Financial Assurance Cost Estimate (FACE)
that plaintiffs would need to provide to maintain their
mining activity. The FACE for SHM was historically
low until June 10, 2011, when it brieﬂy was increased
from $164,223 to $830,490 before being reduced again
to $177,942 in February 2012. Compare PX568 at
165:9, and JX463 with JX559 at 3, and JX 589 at 7.

App-84
Speciﬁcally, the BZA lowered the FACE back to historic
levels after a BZA hearing on December 21, 2011, at
which the County presented testimony from its consulting geologist, although plaintiffs were not given
a chance to present their case. Compare PX568 at
309:21-310:3, 303:23-306:5, with id. at 364:19-365:10.
Nonetheless, after the December 2011 hearing, the
BZA set the FACE at $177,942 as adequate to reclaim
the mine based on its order to ﬁll mine pits to no more
than 30 feet deep. PX568 at 87:2-9, 382:10; JX 589 at
7. Defendants’ consulting geologist even suggested
plaintiffs might receive some money back at their next
inspection. PX568 at 401:11.
But the FACE dramatically increased after the
Schneider plaintiffs ﬁled suit on September 27, 2012.
Despite defendants’ delivering a letter on October 9,
2012 to the Schneiders notifying them their required
FACE deposit of $177,942 was ﬁnal and approved
(JX604 at 41; JX 605 at 9), defendants conducted an
annual inspection of the mine the next day. JX605. Defendants then issued an inspection report increasing
the FACE deposit to $8,817,074 or in the alternative
$901,336 if the plaintiffs ﬁlled their mine pits with ﬁll
from the SHM property itself. JX604; JX 605 at 21. The
jury heard testimony from Schneider that even the
$901,336 alternative would have involved using “several million dollars of [their] stockpile material.” RT
1338:18-21.
Substantial evidence provided support for the
jury’s inference that the increase in the FACE was not
justiﬁed. Although the October 2012 inspection report

App-85
states the BZA “ruled that ﬁnal reclamation of the pit
area would require the pits to be [completely] backﬁlled,” JX 605 at18, the BZA actually had ordered the
pits ﬁlled to 30 feet or less. JX589 at 7. Additionally,
defendants’ consulting geologist testiﬁed at trial that
the SHM reclamation plan required only 30-foot pits,
RT 2181:18-2182:3 (Bieber Test.), and plaintiffs’ consulting engineer testiﬁed as well that ﬁlling the pits
completely was inconsistent with both the reclamation
plan and common mining practice. RT 963:1-967:20.
Additionally, defendants’ consulting geologist testiﬁed
at trial there had been no change in conditions at the
SHM despite the inspection report’s stating its ruling
was based on “changes in condition” between the 2011
and 2012 inspections of the closed mine RT 2206:9-10;
JX 605 at 21; see also RT 950:11-20 (Olsen testimony
that “[b]ecause there hadn’t been any mining activities
done . . . the site really hadn’t changed.”).
Substantial evidence also supported a jury inference that defendants themselves caused the unjustiﬁed FACE increase. Defendants approached their
consulting geologist and asked him to “determine what
the cost would be if we have to import material to bring
the site into . . . substantial conformity to surrounding
topography” based on a BZA determination “that the
30-foot does not apply to the depths of the pits.” RT
2207:14-2208:2 (Bieber Test.). Yet defendants knew the
mine had material on hand to use as ﬁll, and the BZA
had not determined the 30-foot standard did not apply.
PX568 at 379:3. The consulting geologist testiﬁed that,
had the County not directed him to calculate the costs

App-86
of completely reﬁlling pits, he would have continued
interpreting the reclamation plan to allow 30-foot deep
pits. RT 2210:25 (Bieber Test.).
The clear weight of the evidence here does not run
counter to the jury verdict ﬁnding a First Amendment
violation by the County. Although defendant Gamel
testiﬁed the BZA had ordered the pits needed to be reﬁlled if the reclamation plan was not amended, RT
2090:17-2092:22, a compliance table adopted by that
Board on December 12, 2011 mentions only ﬁlling pits
to 30 feet deep. JX589 at 6-8. Gamel’s statements made
in his letter of November 28, 2012, which was attached
to an inspection report, that the BZA ordered the pits
completely ﬁlled, JX605, simply are not consistent
with the record of the Board’s actions in December
2011, at a hearing Gamel attended. PX 568 at 302. Additionally, this evidence, along with the timeline of
events cited above, permitted while not requiring the
jury to infer that the County intentionally took action
against the Schneiders for ﬁling suit.
Defendants’ reliance on plaintiffs’ refusal to ﬁle an
amended reclamation plan, Renewed JMOL Mot. at
60-61, does not shift the clear weight of the evidence
either. First, an amended reclamation plan is needed
only where there is a substantial deviation from the
previously approved reclamation plan. Cal. Code Regs.
tit. 14, § 3502(d). But the substantial evidence cited
throughout this order shows no substantial deviation.
Second, requiring plaintiffs to ﬁle an amended reclamation plan for approval would conﬂict directly with
plaintiffs’ claims in their lawsuit, and the alternative

App-87
involved was to pay a price of at least $901,336 and
perhaps as high as $8,817,074. Third, this rationale
even if given some weight does not rebut defendant
Gamel’s statements misreporting on BZA orders or the
relatively sudden and dramatic increase in the FACE
very shortly after the Schneiders ﬁled suit.
VI. MANDAMUS AND PRECLUSION
Defendants contend plaintiffs’ due process claims
are barred as a matter of law for two reasons. First,
they say this court must give preclusive effect to the
Board of Supervisors’ and BZA’s determinations. Renewed JMOL Mot. at 50-54. Second, plaintiffs did not
ﬁrst pursue or conclude state-court mandamus actions
as required by California Code of Civil Procedure
§ 1094.5. Renewed JMOL Mot. at 49, 52-53The court
rejects both contentions.
Preclusion law “is, of course, subject to due process
limitations.” Taylor v. Sturgell, 553 U.S. 880, 891 (2008).
The Ninth Circuit has made clear that administrative
proceedings including legal adjudications receive preclusive effect only where “the state proceeding satisﬁes
the requirements of fairness outlined in” United States
v. Utah Construction & Mining Co., 384 U.S. 394 (1994).
Miller v. Cty. of Santa Cruz, 39 F.3d 1030, 1032-33 (9th
Cir. 1994). “The fairness requirements of Utah Construction are: (1) that the administrative agency act in
a judicial capacity, (2) that the agency resolve disputed
issues of fact properly before it, and (3) that the parties
have an adequate opportunity to litigate.” Id. at 1033.

App-88
Because plaintiffs lacked an adequate opportunity
to litigate, the court need not give preclusive effect to
the Board of Supervisors’ or BZA’s decisions. The court
has already discussed the evidence on plaintiffs’ opportunity to litigate and declines to repeat it here. See supra, at IV.C. In any event, the court instructed the jury
that it was not to consider the correctness or incorrectness of the Board of Supervisors’ or BZA’s determinations. ECF No. 461 at 25. And of course “[a] jury is
presumed to follow its instructions.” Weeks v. Angelone,
528 U.S. 225, 234 (2000).
Even if plaintiffs had a full opportunity to litigate
in the Board of Supervisors and BZA hearings, the
court does not ﬁnd any preclusion of plaintiffs’ due process claims. As the court has discussed above, the
County’s deprivation of plaintiffs’ vested right to mine
occurred without the required Calvert hearing, and the
subsequent 2010 hearings did not permit plaintiffs to
put defendants’ deprivation at issue. See supra, at
IV.B-C. For this same reason, defendants’ reliance on
California Code of Civil Procedure § 1094.5 fails. See
Embury v. King, 191 F. Supp. 2d 1071, 1084 (N.D. Cal.
2001), aff ’d, 361 F.3d 562 (9th Cir. 2004), as amended
and aff ’d, No. 02-15030, 2004 WL 1088297 (9th Cir.
May 17, 2004) (“Although section 1094.5 may provide
an adequate opportunity to challenge a procedurally
ﬂawed administrative hearing, it does not provide an
adequate opportunity to challenge an administrative
decision rendered without any process at all.”).

App-89
VII. REMAINING ISSUES
A. Inconsistent Verdicts
Defendants argue a new trial must be granted because the jury verdicts are inconsistent. New Trial
Mot. at 14-15. Defendants cite Jury Instruction 22,
which addressed damages for procedural due process
violations and explained “only nominal damages are
recoverable for a deprivation of a property interest determined to be otherwise justiﬁed.” JI 22. According to
defendants, because the jury awarded nominal damages for a violation of procedural due process, the jury
necessarily determined the deprivation was “otherwise
justiﬁed.” And because the procedural due process violation was otherwise justiﬁed, the jury’s verdict regarding procedural due process thus conﬂicted with
the jury’s verdict ﬁnding a substantive due process violation based on an “arbitrary” violation of plaintiffs’
liberty or property interests. New Trial Mot. at 15
(“Thus, on the procedural due process claim, the Jury
found that the deprivation of Plaintiffs’ property interest was justiﬁed, and in the substantive due process
claim, the Jury found the deprivation of Plaintiffs’
property interest was unjustiﬁed, in that it was arbitrary. These two verdicts are inconsistent, and cannot
be reconciled.”).
The court has a duty to reconcile the jury’s special
verdict responses on any reasonable theory consistent
with the evidence. Pierce v. S. Paciﬁc Transp. Co., 823
F.2d 1366, 1369 (9th Cir. 1987) (citing, inter alia,
Gallick v. Baltimore & O. R.R., 372 U.S. 108, 119-22

App-90
(1963)). A court may not disregard a jury’s verdict and
order a new trial until it “attempt[s] to reconcile the
jury’s ﬁndings, by exegesis if necessary.” Duk v. MGM
Grand Hotel, Inc., 320 F.3d 1052, 1058-59 (9th Cir.
2003) (quoting Gallick, 372 U.S. at 119). “Where there
is a view of the case that makes the jury’s answers to
special interrogatories consistent, they must be resolved that way,” because to do otherwise “results in a
collision with the Seventh Amendment.” Id. (quoting
Atl. & Gulf Stevedores, Inc. v. Ellerman Lines, Ltd., 369
U.S. 355, 364 (1962)). The court “must accept any reasonable interpretation of the jury’s actions.” Zhang v.
Am. Gem Seafoods, Inc., 339 F.3d 1020, 1038 (9th Cir.
2003).
Upon careful review, the court ﬁnds the record provides a reasonable interpretation for the jury’s actions:
the jury could have found plaintiffs were unjustiﬁably
deprived of their protected interests in violation of procedural due process, the unjustiﬁed deprivation did not
proximately cause them actual damages, but defendants’ subsequent conduct violating their substantive
due process rights did. Indeed, that is what plaintiffs
asserted in closing argument. RT 2493:5-24 (asking
only for “nominal damages” after asserting that procedural due process “is not the claim we believe all of the
damages came from, but the county has to be called for
that. They have to know what they did was wrong.”).
Plaintiffs asserted they believed both substantive and
procedural due process rights were violated, one “carried enormous consequences,” and “that the core issue
in this case is substantive due process.” RT 2466:8-9,

App-91
2496:21-22. When discussing substantive due process
damages, plaintiffs asserted “the county refused to recognize the vested right, it shut the mine down.” RT
2498:3-4. This view, which takes account of the jury instructions as a complete package, makes the two verdicts consistent, and so they must be resolved this way.
Duk, 320 F.3d at 1058-59 (quoting Ellerman Lines, 369
U.S. at 364). Because the verdicts are not inconsistent,
the court DENIES the request to grant a new trial on
this ground.
B. Immunity
1. Absolute Immunity
Defendant Dickinson contends he is entitled to absolute immunity for his legislative acts and qualiﬁed
immunity for his executive acts. Renewed JMOL Mot.
at 64.
Courts in the Ninth Circuit examine four factors
to determine whether an act may qualify for legislative
immunity: (1) “whether the act involves ad hoc decisionmaking, or the formulation of policy”; (2) “whether
the act applies to a few individuals, or to the public at
large”; (3) “whether the act is ‘formally legislative [in]
in character”; and (4) “whether it bears ‘all the hallmarks of traditional legislation.’ ” Bechard v. Rappold,
287 F.3d 827, 829 (9th Cir. 2002) (quoting Bogan v.
Scott-Harris, 523 U.S. 44, 55 (1998)).
In Kaahumanu v. Cty. of Maui, 315 F.3d 1215,
1219-24 (9th Cir. 2003), the Ninth Circuit applied this

App-92
four-factor analysis to a county council’s denial of
plaintiff ’s application for a conditional use permit.
There, the Ninth Circuit upheld the district court’s
conclusion that the council’s decision was “ad hoc” because the decision was “based on the circumstances of
the particular case and did not effectuate policy or create a binding rule of conduct.” Id. at 1220. Nor did the
decision “apply to the public at large in Maui County,”
either. Id. at 1222. Although the council decision was
formally legislative in character, this fact alone “does
not in itself decide the issue.” Id. at 1223. The Ninth
Circuit found the fourth factor weighed against ﬁnding
that legislative immunity was available because the
decision “was ad hoc rather than one of policy,” it “did
not change Maui’s comprehensive zoning ordinance or
the policies underlying it,” and it did not “affect the
County’s budgetary priorities or the services the
County provides to residents.” Id. at 1223-24. Thus,
“[d]espite its formally legislative character, the decision was administrative and the individual members
of the Maui City Council are therefore not entitled to
legislative immunity.” Id. at 1224.
Like the council’s decision in Kaahumanu, defendant Dickinson’s voting decisions in this case are not entitled to legislative immunity: they were ad hoc, they
affected the Hardestys and the Schneiders as individuals, and they were based on the particular circumstances involving the SHM. Thus, Dickinson is not
entitled to absolute immunity.

App-93
2. Qualified Immunity
Defendants also contend they are entitled to qualiﬁed immunity. As to Dickinson, defendants contend
“[p]laintiffs offered no evidence that he acted in bad
faith or with the knowing intention to violate their constitutional rights.” Renewed JMOL Mot. at 65. As to
defendants Sherry and Gamel, defendants contend
“there is no evidence” that these defendants “violated
any constitutional rights of the [p]laintiffs.” Id. at 6263. In part, defendants contend Sherry and Gamel
could not violate substantive due process because
these defendants “did not make any ﬁnal determination regarding either vested rights or the requirement
for a conditional use permit and a rezone.” Id. at 63
(original emphasis). Defendants also contend plaintiff ’s due process claims “do not implicate clearly established constitutional rights of which a reasonable
person would have known.” Renewed JMOL Mot. at 63.
a) Standard
Qualiﬁed immunity “protects government ofﬁcials
‘from liability for civil damages insofar as their conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.’ ” Pearson v. Callahan, 555 U.S.
223, 231 (2009) (quoting Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982)). Two factors determine whether the
defense of qualified immunity applies: (1) whether
the facts “make out a violation of a constitutional
right”; and (2) “whether the right at issue was ‘clearly

App-94
established’ at the time of defendant’s alleged misconduct.” Pearson, 555 U.S. at 232 (internal citation omitted). The court is not required to consider the two steps
in sequential order, and may ﬁnd a defendant entitled
to qualiﬁed immunity if either factor is absent, i.e., if
either the alleged facts do not make out the violation
of a constitutional right, or the right at issue was not
“clearly established” at the relevant time. Id. at 23637.
A right is “clearly established,” if under case law
existing at the time of the conduct at issue, a reasonable ofﬁcial would have understood that what he is doing violates that right. Mullenix, 136 S. Ct. at 308.
While “ofﬁcials can still be on notice that their conduct
violates established law even in novel factual circumstances,” Hope v. Pelzer, 536 U.S. 730, 741 (2002), “existing precedent must have placed the statutory or
constitutional question beyond debate,” Ashcroft v. alKidd, 563 U.S. 731, 741 (2011).
b) Clearly Established Law
Here, plaintiffs’ constitutional rights were clearly
established at the time of the alleged misconduct,
which began in 2009. California Public Resources Code
§ 2776(a) has been in place since 1975 and in its current form since January 1, 2007. See Stats. 1975, c.
1131, p. 2793, § 11; Stats. 2006, c. 538 (S.B. 1852),
§ 560. The Hansen Brothers decision was decided in
1996. 12 Cal.4th at 533. There, the California Supreme
Court clearly held that nonconforming mining uses are

App-95
subject to the “diminishing asset doctrine,” which
permits mining uses to expand into new areas as
long as their owners intended to mine these new areas when the mining uses became nonconforming. Id.
The state Court expressly stated the appropriate remedy “[w]hen it appears that a nonconforming use is being expanded": “the county may order the operator to
restrict the operation to its former level, and seek an
injunction if the owner does not obey.” Hansen Bros., 12
Cal. 4th 533 at 575.
Additionally, at least since 1990, it has been
clearly established in this Circuit that action by government ofﬁcials may be found to be arbitrary and irrational when it “was motivated, not by legitimate
regulatory concerns, but by political pressure” or an
improper motivation. Del Monte Dunes, 920 F.2d at
1508; Benigni, 879 F.2d at 478; Bateson, 857 F.2d at
1303 (detailing violation of substantive due process
rights where defendant singles out “one individual to
be treated discriminatorily”).
c) Dickinson
Defendants contend “[p]laintiffs offered no evidence that [Dickinson] acted in bad faith or with
the knowing intention to violate their constitutional
rights.” Renewed JMOL Mot. at 65. But this is not the
test for qualiﬁed immunity. Because clearly established law existed at the time of the violation of plaintiffs’ substantive due process rights, the court need

App-96
only address whether or not Dickinson participated in
the violation the jury found.
Substantial evidence supported the conclusion
Dickinson engaged in afﬁrmative acts causing deprivation of plaintiffs’ substantive due process rights—
namely, the deprivation of their vested right to mine
See Lacey v. Maricopa Cty., 963 F.3d 896, 916 (9th Cir.
2012). For instance, Dickinson’s office contacted County
staff about potential violations at SHM as early as October 2008. JX214; JX157 at 3. Dickinson met with
Teichert and other defendants multiple times, including to discuss SHM. JX363; JX392; JX507. At a September 14, 2010 hearing, Dickinson announced he did
not believe there was a vested right, JX483-014:2315:17, and he disavowed the County’s recognition of
the vested rights in 1994. JX483-019:16-020:12. During a Board of Supervisors hearing, Dickinson called
on one of Teichert’s attorneys to not only testify but
also to introduce an “extensive letter, a whole series
of exhibits attached to it which cover virtually every
issue which was discussed here this afternoon.” JX483079:15-21. Dickinson also denied Schneider’s requested
time to review evidence from Teichert. JX483-100:10101:10. And Dickinson voted to close the SHM on September 28, 2010. JX483 at 104-07. At trial, Dickinson
affirmed documentation showing Teichert made a
campaign contribution to him the day before the
critical hearing, although he also noted he would not
have known of the donation at the time. As noted,
Teichert agreed to help fund the County’s aggregate
enforcement program the day after the hearing. RT

App-97
1231:15-24, 1232:9-1233:13. From this evidence, weighing it as instructed, it was not the jury’s only option but
the jury could infer Dickinson engaged in afﬁrmative
acts causing the SHM to eventually permanently close
without any legitimate governmental objective, but instead to satisfy Teichert as a donor.
d) Sherry and Gamel
Defendants contend “there is no evidence” that
Sherry or Gamel “violated any constitutional rights of
the [p]laintiffs.” Id. at 62-63. In part, defendants contend Sherry and Gamel could not violate substantive
due process rights because these defendants “did not
make any ﬁnal determination regarding either vested
rights or the requirement for a conditional use permit
and a rezone.” Id. at 63 (original emphasis).
First, the court notes Sherry and Gamel would not
be entitled to qualiﬁed immunity for acts in their ofﬁcial capacity, which qualify as acts of the County. Owen
v. City of Independence, Mo., 445 U.S. 622, 638 (1980);
City of St. Louis v. Praprotnik, 485 U.S. 112, 124 (1988);
Pembaur v. Cincinnati, 475 U.S. 469, 483 (1986) (plurality opinion). Thus, contentions about Sherry or
Gamel acting in their ofﬁcial capacity as ﬁnal policymakers—a form of municipal liability—are not relevant to a qualiﬁed immunity analysis. See, e.g., RT
2279:2-5, 15-22 (Derby testimony that the planning department—of which Sherry was the director as of April
2, 2009—had ﬁnal decision-making authority “to determine whether there was a vested right or not,” and the

App-98
code enforcement department would then follow the
planning department’s directives to enforce zoning violations).
Regardless, both Sherry and Gamel engaged in afﬁrmative acts that the jury could ﬁnd caused a deprivation of plaintiffs’ substantive due process rights. For
instance, Sherry transmitted to plaintiffs the April
2009 letter, which was drafted by Gamel and copied to
Dickinson. JX287; JX288. Gamel communicated via
email with Teichert lawyer Wheatley about SHM two
weeks before the April 2, 2009 letter was issued, and
Gamel met with Wheatley a week before sending the
e-mail. JX275; 649:12-650:10. Gamel had also responded to a complaint by Teichert about the SHM operating without permits under vested rights by stating
to Teichert, “We will see what we can do.” JX143.
Gamel then provided updates to Teichert, including in
a “Teichert goodies” email to Teichert’s John Lane.
PX676. From this substantial evidence, the jury was
permitted to infer that Sherry and Gamel’s actions in
communicating with Dickinson and Teichert about
SHM, and in issuing the letter to plaintiffs declaring
plaintiffs’ mining was “not protected by [plaintiffs’]
vested right,” caused the deprivation of plaintiffs’
vested right to mine. To the extent a factual dispute
remained as to the parties’ motives, a threshold resolution of that dispute remained an appropriate task of
the jury in the context of a claim of qualiﬁed immunity.
See Lolli v. County of Orange, 351 F.3d 410, 421 (9th
Cir. 2003); Wilkins v. City of Oakland, 350 F.3d 949,
955-56 (9th Cir. 2003).

App-99
C. Punitive Damages
Defendants argue the punitive damages awarded
against the individual defendants are excessive and a
new trial must be granted. New Trial Mot. 11-13. Defendants’ argument lacks merit.
At hearing, defendants conceded excessive damages “would have to be reserved for [their] Rule 59 motion” and was “not a basis for [their] Rule 50(b)
motion. . . .” Hr’g Tr. at 46:9-21. The court therefore addresses defendants’ excessive damages claims under
Rule 59 only.
When reviewing a punitive damages award for
constitutional excessiveness a court should “consider
three guideposts: (1) the degree of reprehensibility of
the defendant’s misconduct; (2) the disparity between
the actual or potential harm suffered by the plaintiff
and the punitive damages award; and (3) the difference
between the punitive damages awarded by the jury
and the civil penalties authorized or imposed in comparable cases.” State Farm Mut. Auto. Ins. Co. v. Campbell, 538 U.S. 408, 418 (2003). “Single-digit multipliers
are more likely to comport with due process.” Id. at 425.
Defendant contends no comparable cases exist for the
third guidepost—the difference between the punitive
damages awarded by the jury and the civil penalties
authorized or imposed in comparable cases. Renewed
JMOL Mot. at 71. The court therefore addresses the
ﬁrst two guideposts below.
Here, the jury awarded punitive damages against
Dickinson of $25,000, Gamel of $1,000,000 and Sherry

App-100
of $250,000, all to Schneider plaintiffs. ECF No. 469 at
7-8. The jury also awarded $500,00 in punitive damages against Sherry to Hardesty plaintiffs, for a total
of $750,000 in punitive damages awarded against
Sherry. Id.
Substantial evidence permitted the jury to infer a
signiﬁcant degree of reprehensibility of defendants’
misconduct. First, as previously discussed, ample evidence shows defendants communicating and coordinating with Teichert about the investigation of SHM’s
vested right. E.g., JX363; JX392; JX487; JX507. Campaign reporting records show Dickinson’s campaign
fund received a contribution the day before his vote
to close SHM, and Teichert agreed to help fund the
County’s aggregate enforcement program the day after
that hearing. RT 1231:15-24, 1232:9-1233:13 (Teichert
Test.). Gamel authored the April 2009 letter, and
Sherry signed it, declaring plaintiffs’ mining was “not
protected by [plaintiffs’] vested right.” JX287. Sherry
signed this letter despite acknowledging the County
never told plaintiffs they could scale back their mining
operation to some “original” vested right. RT 714:1720. Sherry also signed this letter apparently without
understanding the maps attached to the 2002 reclamation plan. See RT 701:6-704:20 (testifying he “can’t tell”
and did not “know what the colors mean” in reference
to maps with legends indicating estimates as to where
mining likely will occur in the next 20, 40, and 100
years). And Gamel testiﬁed to the County’s unilateral
determination without a hearing. RT 524:16-18, 525:6.
The sum total of this conduct resulted in the closure of

App-101
SHM and plaintiffs’ loss of livelihood. This evidence
supports a jury ﬁnding that defendants’ conduct involved targets who “had ﬁnancial vulnerability,” involved “repeated actions,” was “the result of intentional
malice, trickery, or deceit,” or involved a “callous indifference to the constitutional rights of others.” State
Farm, 538 U.S. at 419; Dang v. Cross, 422 F.3d 800, 807
(9th Cir.2005); see also ECF No. 461 (instructing jury
they “may award punitive damages only if [they] ﬁnd
that a defendant’s conduct that harmed a set of plaintiffs was malicious, oppressive, or in reckless disregard
of the plaintiffs’ rights” and deﬁning reckless disregard
as “complete indifference to the plaintiffs’ safety or
rights, or if the defendant acts in the face of a perceived
risk that its actions will violate the plaintiffs’ rights
under federal law”).
Examining the disparity between the actual harm
suffered by plaintiffs and the punitive damages
awarded reveals the punitive damages were not constitutionally excessive. The largest multiplier here is
3.33 percent—the value of Gamel’s punitive damages
award divided by the substantive due process damages
awarded to Schneider plaintiffs. The remaining punitive damages awards as to each defendant, when divided by their respective compensatory damages
awards, do not reach even a single-digit multiplier. See
State Farm, 538 U.S. at 425 (“Single-digit multipliers
are more likely to comport with due process.”).
The court ﬁnds the punitive damages awarded
here were not excessive as to any defendant, given the
applicable legal standards.

App-102
D. Williamson Act Claim
Defendants also contend the court must enter
judgment as a matter of law as to a Williamson Act
claim. Renewed JMOL Mot. at 72-74. But plaintiffs
made no such claim or any related “disguised breach of
contract claim,” Renewed JMOL Mot. at 72, and no
claim of this kind was before the jury. See ECF Nos. 74
(Second Amended Complaint), 461 (ﬁnal jury instructions). Only claims for violations of procedural due process, substantive due process, and right to petition the
government were submitted to the jury. ECF No. 461
at 15, 21-24, 26-27 (ﬁnal jury instructions 14, 18, 19,
21). The court DENIES defendants’ request for renewed judgment as a matter of law on a non-existent
claim.
VIII. CONCLUSION
For the reasons above, the court DENIES defendants’ motions for renewed judgment as a matter of law
and for a new trial. This order resolves ECF Nos. 537
and 538.
IT IS SO ORDERED.
DATED: March 31, 2018.
/s/ Kimberly Mueller
UNITED STATES
DISTRICT JUDGE

App-103
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOSEPH HARDESTY;
et al.,

Nos. 18-15772, 18-15773

D.C. Nos.
2:10-cv-02414-KJM-KJN
2:12-cv-02457-KJM-KJN
v.
U.S. District Court for
SACRAMENTO COUNTY, Eastern California,
Defendant-Appellant, Sacramento
ORDER
and
Plaintiffs-Appellees,

ROGER DICKINSON;
et al.,

(Filed Oct. 13, 2020)

Defendants.
Before: W. FLETCHER and R. NELSON, Circuit Judges,
and SESSIONS,* District Judge.
Judge W. Fletcher and Judge R. Nelson have voted,
and Judge Sessions so recommends, to deny Appellant
Sacramento County’s petition for rehearing en banc,
Appellees Schneider’s petition for panel rehearing and
rehearing en banc, and Appellees Hardesty’s petition
for panel rehearing and rehearing en banc. The full
court has been advised of the petitions for rehearing
en banc, and no judge has requested a vote on whether
to rehear the matter en banc. Fed. R. App. P. 35.

* The Honorable William K. Sessions III, United States District Judge for the District of Vermont, sitting by designation.

App-104
The petitions for panel rehearing and for rehearing en banc (Docket Entry Nos. 93, 94, 95) are DENIED.

App-105
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
JUDGMENT IN A CIVIL CASE
JOSEPH HARDESTY,
ET AL.,

CASE NO:
2:10-CV-02414-KJM-KJN

v.
SACRAMENTO COUNTY,
ET AL.,
XX – Jury Verdict. This action came before the
Court for trial by jury. The issues have been
tried and the jury has rendered its verdict.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED
IN ACCORDANCE WITH THE JURY VERDICT RENDERED 3/21/2017
Marianne Matherly
Clerk of Court
ENTERED: June 9, 2017
by: /s/ K. Zignago
Deputy Clerk

